<html>
<title> - MISLEADING INFORMATION FROM THE BATTLEFIELD</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
              MISLEADING INFORMATION FROM THE BATTLEFIELD

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 24, 2007

                               __________

                           Serial No. 110-54

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
42-898 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

             COMMITTEE ON OVERSISGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                ------ ------
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director

                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 24, 2007...................................     1
Statement of:
    Gimble, Thomas F., Acting Inspector General, Department of 
      Defense; Brigadier General Rodney Johnson, Army Criminal 
      Investigative Command; Specialist Bryan O'Neal, U.S. Army; 
      Senior Chief Stephen White, Navy Seal, U.S. Navy; and 
      Lieutenant Colonel John Robinson, Director of Media 
      Services Division, Soldiers Media Center...................    74
        Gimble, Thomas F.........................................    74
        Johnson, Brigadier General Rodney........................    89
        O'Neal, Specialist Bryan.................................    90
        Robinson, Lieutenant Colonel John........................    92
        White, Senior Chief Stephen..............................    92
    Tillman, Kevin; Jessica Lynch; and Dr. Gene Bolles, Denver 
      Medical Health Center......................................    16
        Bolles, Dr. Gene.........................................    27
        Lynch, Jessica...........................................    21
        Tillman, Kevin...........................................    16
Letters, statements, etc., submitted for the record by:
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland:
        Memo dated April 28, 2004................................    37
        P4 memo..................................................    39
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois, letter dated April 19, 2007.............    66
    Davis, Hon. Tom, a Representative in Congress from the State 
      of New York, prepared statement of.........................    14
    Gimble, Thomas F., Acting Inspector General, Department of 
      Defense, prepared statement of.............................    76
    Lynch, Jessica, prepared statement of........................    24
    O'Neal, Specialist Bryan, U.S. Army, prepared statement of...    91
    Waxman, Chairman Henry A., a Representative in Congress from 
      the State of California, prepared statement of.............     5


              MISLEADING INFORMATION FROM THE BATTLEFIELD

                              ----------                              


                        TUESDAY, APRIL 24, 2007

                          House of Representatives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:20 a.m., in 
room 2157, Rayburn House Office Building, Hon. Henry A. Waxman 
(chairman of the committee) presiding.
    Present: Representatives Waxman, Maloney, Cummings, 
Kucinich, Davis of Illinois, Tierney, Clay, Watson, Lynch, 
Yarmuth, Braley, Norton, McCollum, Cooper, Hodes, Murphy, 
Sarbanes, Davis of Virginia, Burton, Shays, Mica, Platts, 
Duncan, Turner, Issa, Foxx, and Sali.
    Also present: Representatives Honda, Mitchell, and Hayes.
    Staff present: Phil Schiliro, chief of staff; Phil Barnett, 
staff director and chief counsel; Karen Lightfoot, 
communications director and senior policy advisor; David 
Rapallo, chief investigative counsel; John Williams, deputy 
chief investigative counsel; David Leviss, senior investigative 
counsel; Suzanne Renaud and Susanne Sachsman, counsels; Earley 
Green, chief clerk; Teresa Coufal, deputy clerk; Caren Auchman, 
press assistant; Zhongrui J.R. Deng, chief information officer; 
Leneal Scott, information systems manager; Bonney Kapp, fellow; 
Kerry Gutknecht, Will Ragland, and Bret Schothorst, staff 
assistants; David Marin, minority staff director; Larry 
Halloran, minority deputy staff director; Jennifer Safavian, 
minority chief counsel for oversight and investigations; Keith 
Ausbrook, minority general counsel; Ellen Brown, minority 
legislative director and senior policy counsel; A. Brooke 
Bennett, Charles Phillips, and John Callender, minority 
counsels; Christopher Bright, minority professional staff 
member; Nick Palarino, and John Cuaderes, minority senior 
investigators and policy advisors; Patrick Lyden, minority 
parliamentarian and member services coordinator; and Benjamin 
Chance, minority clerk.
    Chairman Waxman. The committee will come to order.
    I want to point out by a notice to all the Members that the 
opening statements will be provided by unanimous consent by the 
cChairman and the ranking member, and then we will go right to 
our witnesses.
    I also want to start off this hearing by saying something 
that I think is very clear and already obvious. My colleagues, 
whether they are Democrats or Republicans, support our troops. 
We are deeply grateful for their sacrifices. We know that so 
many men and women have voluntarily put their lives on the line 
to defend this country and our freedom.
    It is probably just is obvious that the actions of our 
government are not meeting our aspirations. We saw that vividly 
and unforgettably when we had the hearing and we watched the 
disgraceful conditions at Walter Reed. We saw it again when our 
government officials made an intolerable breach by making 
public the secret and classified CIA identity of Valerie Plame 
Wilson, and we are going to see it again this morning.
    The bare minimum we owe our soldiers and their families is 
the truth. That didn't happen for two of the most famous 
soldiers in the Iraq and Afghanistan wars. For Jessica Lynch 
and Pat Tillman, the government violated its basic 
responsibility.
    Sensational details and stories were invented in both 
cases. Sometimes because of the fog of war, the first reports 
from the battlefield are inaccurate, but that doesn't seem to 
explain what happened here.
    In Jessica Lynch's case, the first reports were right. It 
was the followup stories published 10 days after her capture 
that discarded the facts and misled the country.
    The Washington Post published a front page story on April 
2, 2003. It was written by Vernon Loeb and Dana Priest, and it 
got the story right. I want to read the lead paragraphs: 
``Jessica Lynch, a 19 year old private first class missing 
since the ambush of an Army maintenance company 10 days ago in 
southern Iraq, has been rescued by Special Operations forces, 
defense officials said yesterday. CIA operatives in Iraq 
located Lynch in a hospital near Nasiriyah where she was being 
held because of multiple wounds, officials said, and a 
helicopter-borne team of Navy SEALS and Army Rangers rescued 
her about midnight local time.''
    That was an accurate statement, but the next day, April 
3rd, the Washington Post ran another front page story. This one 
was written by Susan Schmidt and Vernon Loeb, and the contrast 
with the April 2nd story is remarkable.
    Here is what the Post reported: ``Pfc. Jessica Lynch, 
rescued Tuesday from an Iraqi hospital, fought fiercely and 
shot several enemy soldiers after Iraqi forces ambushed the 
Army's 507th Ordnance Maintenance Company, firing her weapon 
until she ran out of ammunition, U.S. officials said yesterday. 
Lynch, a 19 year old supply clerk, continued firing at the 
Iraqis even after she sustained multiple gunshot wounds and 
watched several other soldiers in her unit die around her in 
fighting March 23, one official said.''
    Where did this false information come from?
    Jessica Lynch was captured on March 23rd. The Washington 
Post published a completely factual article on her rescue on 
April 2nd, but then they went on, 10 days after her capture, 
U.S. officials had become the source of a report that riveted 
the Nation but twisted the truth beyond recognition.
    It is 4 years later and we still don't know who is 
responsible or why they did it. All we really know is that they 
did a great disservice to Jessica Lynch.
    And so, I want to say to Private Lynch and her family who 
are here today, this committee is going to do its best to find 
out the source of the fabrications that you had to endure. We 
want to know whether they were the result of incompetence or a 
deliberate strategy to spin a compelling story at a critical 
time, and we will do our best to find out who should be held 
accountable.
    Everyone on this committee is also familiar with Pat 
Tillman's case, and we all share our sympathies with his wife, 
Marie, his mother, Mary, his father, Patrick, his brother, 
Kevin and his entire family.
    But his family wants more than our sympathies and 
apologies. They want answers, and they deserve them. Pat 
Tillman was killed by members of his own platoon on April 22, 
2004, 3 years ago this past Sunday. But since then, the family 
has been unable to learn why the military told the world that 
Corporal Tillman had been killed by the enemy when, in fact, 
they knew he had died from friendly fire.
    News of the fratricide flew up the chain of command within 
days, but the Tillman family was kept in the dark for more than 
a month. Many military officials sat in silence during a 
nationally televised memorial ceremony highlighting Pat 
Tillman's fight against the terrorists. Evidence was destroyed. 
Witness statements were doctored.
    The Tillman family wants to know how all of this could have 
happened, and they want to know whether these actions were all 
just accidents or whether they were deliberate.
    In working on this hearing, the committee has learned of 
many other cases in which the military failed to tell the 
families the truth.
    Sergeant Eddie Ryan was a victim of friendly fire during 
his second tour in Iraq. He sustained two gunshot wounds to the 
head and, thankfully, is still alive, but he didn't find out 
the truth about his injuries until 5 months later even though 
his fellow Marines knew immediately that his injuries were due 
to friendly fire.
    Other families, like those of First Lieutenant Sarah K. 
Small, Private First Class Levena Johnson and Lieutenant Ken 
Ballard, have been forced to file Freedom of Information Act 
requests in order to obtain information about the deaths of 
their loved ones. These families have asked the military 
repeatedly for basic information, but they have been ignored or 
dismissed with slow and incomplete answers. This is simply 
unacceptable.
    One of the things that make the Afghanistan and Iraq wars 
so different from previous wars is the glaring disparity in 
sacrifice. For the overwhelming number of Americans, this war 
has brought no sacrifice and no inconvenience, but for a small 
number of Americans, the war has demanded incredible and 
constant sacrifice. Those soldiers and their families pay that 
price proudly and without complaint.
    That is what Jessica Lynch and Pat Tillman did, and it is 
what their families have done, but our Government failed them. 
Our government hasn't done right by them.
    I hope, in some small but important way, this hearing can 
begin to right those wrongs.
    The least we owe to our courageous men and women who are 
fighting for our freedom is the truth, and that is what we are 
going to insist on in this hearing and in our subsequent 
examination and investigation.
    [The prepared statement of Chairman Henry A. Waxman 
follows:]

[GRAPHIC] [TIFF OMITTED] T2898.001

[GRAPHIC] [TIFF OMITTED] T2898.002

[GRAPHIC] [TIFF OMITTED] T2898.003

[GRAPHIC] [TIFF OMITTED] T2898.004

[GRAPHIC] [TIFF OMITTED] T2898.005

[GRAPHIC] [TIFF OMITTED] T2898.006

[GRAPHIC] [TIFF OMITTED] T2898.007

    Chairman Waxman. I want to now recognize the ranking member 
of the committee, Tom Davis.
    Mr. Davis of Virginia. Thank you, Mr. Chairman.
    If the first casualty of war is the truth, what happens 
when the wound is self-inflicted?
    That is the question the committee confronts today as we 
examine two very different cases in which accurate information 
from the battlefield was delayed, distorted or suppressed, not 
by any foe but by those on our side of the fight. Each case 
offers very different lessons on how or whether the truth 
survives in the wake of combat.
    Chairman Waxman framed this hearing well by asking whether 
misstatements by military officials regarding the capture of 
Army Private Jessica Lynch and the death of Army Corporal 
Patrick Tillman were the result of innocent miscommunication, 
negligence or deliberate deception.
    But it is not always easy to tell where inadvertencies end 
and lying begins. In the military, one innocent misstatement 
can quickly become the incontrovertible company line 
reflexively defended up and down the chain of command even 
after contradictory facts emerge.
    One erroneous media report amplified by various audiences 
for their own reasons could overwhelm any effort to set the 
record straight. Especially in this modern war of ideas as well 
as arms, the insatiable appetite of the 24/7 global news cycle 
often outpaces official fact-finding, filling the vacuum with 
speculation, supposition and thinly sourced, premature 
conclusions.
    That appears to be a large part of what happened in the 
case of Jessica Lynch. From the outset, Department of Defense 
officials took pains to provide accurate information about her 
wounds, but an anonymously sourced Washington Post story loudly 
heralded a description of her ordeal involving a solitary 
firefight with the enemy, bullet wounds and knife attacks. That 
tale, which proved inaccurate, seemed at odds with other 
emerging information about the circumstances of her capture and 
the nature of her injuries.
    Still, without knowing the identity or motive of the Post's 
unnamed source, it is difficult to fault Pentagon officials who 
never fed or perpetuated the Hollywood version of events but 
stuck consistently with the facts at hand.
    The fog of war can be dense, and Ms. Lynch's story offers 
only a cautionary tale about waiting for the smoke to clear 
before accepting early battle damage assessments as fact.
    The case of Army Ranger Pat Tillman is far more troubling. 
Rules and procedures put in place precisely for the purpose of 
providing timely and accurate information about combat deaths 
were ignored. Physical evidence that could have yielded 
critical information was destroyed. Plausible information and 
the likelihood this was a friendly fire incident was 
discounted, perhaps even suppressed, while statements 
supporting award of the Silver Star went forward, suggesting he 
died from enemy fire.
    Those errors, omissions and delays understandably fueled 
suspicion that senior military officials knew the actual 
circumstances of Corporal Tillman's death but manipulated the 
information to avoid bad news. After several investigations, it 
now seems clear those officers could have and should have known 
friendly fire was suspected.
    It was a disservice to the memory of Corporal Tillman, to 
his family, his unit and the Nation to let the happy myth 
outrun the unpleasant facts even for a day.
    While we need to be sensitive to pending recommendations 
and ongoing investigations in this matter, we need to know why 
so many did not know the rules when friendly fire is a 
possibility, and we need to know what has been done to make 
sure those rules are being strengthened, conveyed and applied 
to prevent even an accidental recurrence of this type of 
tragedy.
    War is about heroic efforts, and we all look for heroes. It 
is our great fortunate as a Nation to be blessed abundantly 
with genuine heroes who, in ways large and small, protect our 
liberties and serve the cause of human dignity every day.
    The truth about Jessica Lynch and Patrick Tillman is heroic 
enough. There is no need to embellish or spin it.
    I hope today's testimony will bring some closure to the 
Tillman family and bring some assurances to all service members 
and their families that truth will survive the battle and 
accompany them safely home.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T2898.008
    
    [GRAPHIC] [TIFF OMITTED] T2898.009
    
    Chairman Waxman. Thank you, Mr. Davis.
    I want to welcome our witnesses. The Tillman family, Ms. 
Lynch, those with her, please come forward.
    While they are doing that, several Members who do not serve 
on our committee are joining us for the hearing today, and I 
would like to ask unanimous consent that Representatives Hayes, 
Honda and Mitchell be allowed to participate in the hearing.
    Without objection, that will be the order. They will be 
permitted to ask questions after all members of the committee 
have completed their questioning.
    I want to thank all of you for being here today, not just 
those who are going to present testimony to us but the other 
family members that are here as well. We know it is not easy to 
be here and to have to relive experiences that have been quite 
unpleasant, but I think it is important not just for you but 
for the American people and for all the other men and women 
that are fighting for freedom in Iraq and in Afghanistan.
    It is the policy of this committee that all witnesses are 
sworn in to take an oath, and I would like to ask each of you 
if you would to please stand and raise your right hands.
    [Witnesses sworn.]
    Chairman Waxman. The record will indicate that each of the 
witnesses answered in the affirmative.
    Mary Tillman is the mother of Corporal Pat Tillman. Mrs. 
Tillman has persistently pursued the many unanswered questions 
concerning the circumstances of her son's death and the 
shortcomings of the investigations that followed.
    Kevin Tillman is the brother of Corporal Pat Tillman and 
former Army Ranger who served in the same platoon in 
Afghanistan as Corporal Tillman, and this is his first time 
testifying publicly about this matter.
    Jessica Lynch is a former Private First Class, U.S. Army. 
Ms. Lynch was captured by Iraqi soldiers on March 23, 2003, 
when her convoy was ambushed, and she was rescued by American 
troops 9 days later.
    Dr. Gene Bolles is the former Chief of Neurosurgery, 
Landstuhl Regional Medical Center, Germany. Dr. Bolles treated 
Private Lynch's injuries in Germany after she was rescued in 
Iraq.
    We thank each of you for being here, and we are looking 
forward to hearing your testimony. I know there will be 
questions that Members will want to ask.
    Mr. Tillman, there is a button on the base of the mic to 
turn it on, and I would like to ask you to be sure to pull it 
close to you. You can pull it close to you rather than having 
to lean over to it.
    Thank you very much. You are recognized.

   STATEMENTS OF KEVIN TILLMAN; JESSICA LYNCH; AND DR. GENE 
              BOLLES, DENVER MEDICAL HEALTH CENTER

                   STATEMENT OF KEVIN TILLMAN

    Mr. Kevin Tillman. I want to thank Chairman Waxman for 
holding this hearing and members of the committee for 
attending.
    My name is Kevin Tillman.
    Two days ago marked the third anniversary of the death of 
my older brother, Pat Tillman, in Sperah, Afghanistan. To our 
family and friends, it was a devastating loss. To the Nation, 
it was a moment of disorientation. To the military, it was a 
nightmare. But to others within the government, it appears to 
have been an opportunity.
    April 2004 was turning into the deadliest month to date in 
the war in Iraq. The dual rebellions in Najaf and Fallujah 
handed the U.S. forces their first tactical defeat as American 
commanders essentially surrendered Fallujah to members of Iraq 
resistance, and the administration was forced to accede to 
Ayatollah Sistani's demand for January elections in exchange 
for assistance in extricating U.S. forces from its battle with 
the Mahdi Militia.
    A call-up of 20,000 additional troops was ordered, and 
another 20,000 troops had their tours of duty extended.
    In the midst of this, the White House learned that 
Christian Parenti, Seymour Hersh and other journalists were 
about to reveal a shocking scandal involving mass and systemic 
detainee abuse at the facility known as Abu Ghraib.
    Then on April 22, 2004, my brother, Pat, was killed in a 
firefight in eastern Afghanistan. Immediately after Pat's 
death, our family was told that he was shot in the head by the 
enemy in a fierce firefight outside a narrow canyon.
    In the days leading up to Pat's memorial service, media 
accounts based on information provided by the Army and the 
White House were wreathed in a patriotic glow and became more 
dramatic in tone. A terrible tragedy that might have further 
undermined support for the war in Iraq was transformed into an 
inspirational message that served instead to support the 
Nation's foreign policy wars in Iraq and Afghanistan.
    To further exploit Pat's death, he was awarded the Silver 
Star for Valor. The abridged version went like this:

          Only after his team engaged this well armed enemy did it 
        appear that the enemy's volume of fire into Corporal, into the 
        kill zone diminished. Above the din of battle, Corporal Tillman 
        was heard issuing fire commands to take the fight to an enemy 
        on the dominating high ground.

          Always leading from the front, Corporal Tillman aggressively 
        maneuvered his team against the enemy position on the steep 
        slope. As a result of Corporal Tillman's effort and heroic 
        action, the trail element of the platoon was able to maneuver 
        through the ambush position of relative safety without 
        suffering a single casualty.

          The fight that ensued at Corporal Tillman's position 
        increased in intensity. Corporal Tillman focused all his 
        efforts on keeping the men of his team safe while continuing to 
        press the attack himself without regard for his own personal 
        safety. In the face of mortal danger, Corporal Tillman 
        illustrated that he would not fail his comrades. His actions 
        are in keeping with the highest standards of the U.S. Army.

    This was a narrative that inspired countless Americans as 
intended.
    There was one small problem with the narrative, however. It 
was utter fiction. The content of the multiple investigations 
revealed a series of contradictions that strongly suggest 
deliberate and careful misrepresentations.
    We appeal to this committee because we believe this 
narrative was intended to deceive the family but more 
importantly to deceive the American public.
    Pat's death was clearly the result of fratricide. It was 
due to a series of careless actions by several individuals in 
our platoon after a small harassing ambush.
    During this uncontrolled shooting, the driver of the 
vehicle himself recognized friendlies immediately but kept 
driving for approximately 400 meters while the soldiers in the 
back of his truck continued to shoot at the hillside where the 
U.S. soldiers were and civilians.
    The vehicle saw arms and hands waving. Smoke was flying. 
Pin gun flares. An Afghan soldier was immediately recognized. 
They never felt threatened, and they still shot up the village 
unprovoked. The vehicle behind them clearly saw the U.S. 
soldiers on the hillside and were calling cease-fire.
    The end result were the death of Pat and the Afghan soldier 
as well as two more soldiers wounded in the village.
    The signs were available, but the decision to shoot was 
made. This was not some fog of war. They simply lost control.
    According to the sworn statements, statement on April 26th 
by the fellow soldier who was right next to Pat, literally 
right next to Pat:

          I remember watching the friendlies just shooting at us. A 50-
        cal rolled up into our sights and starting to unload on top of 
        us. It would work in boosts. Fifty cal for 10 to 15 seconds, 
        240 Bravo, 10 to 15 seconds, back and forth. Specialist Tillman 
        and I were yelling: Cease. Stop. Stop. Friendlies. Friendlies. 
        Cease fire.

          But they could not hear us.

          Tillman came up with the idea to let a smoke grenade go. They 
        stopped. This stopped the friendly contact for a few moments, 
        and that is when I realized the AMF soldier was dead.

          At this time, the GMV rolled into a better position to fire 
        on us. We thought the battle was over, though, so we were 
        relieved, getting up, stretching out and talking with one 
        another when I heard some 5.56 rounds coming from the GMV.

          They started firing again. That is when I hit the deck.

          Specialist Tillman at this time was hit by small arms fire. I 
        know this because I could hear the pain in his voice as he 
        called out: Cease fire. Friendlies. I am Pat, F'ing, Tillman, 
        damn it.

          He said this over and over again until he stopped.

    The facts of this case clearly show Pat and the Afghan 
soldier were killed by fellow members of his platoon as well as 
the wounded soldiers on the hillside, and they knew this 
immediately.
    Revealing that Pat's death was a fratricide would have been 
yet another political disaster during a month already swollen 
with political disasters and a brutal truth that the American 
public would undoubtedly find unacceptable. So the facts needed 
to be suppressed.
    An alternative narrative had to be constructed. Crucial 
evidence was destroyed including Pat's uniform, equipment and 
notebook. The autopsy was not done according to regulation, and 
a field hospital report was falsified.
    An initial investigation completed in 8 to 10 days before 
testimony could be changed or manipulated and which hit 
disturbingly close to the mark disappeared into thin air and 
was conveniently replaced by another investigation with more 
palatable findings.
    This freshly manufactured narrative was then distributed to 
the American public, and we believe the strategy had the 
intended effect. It shifted the focus from the grotesque 
torture at Abu Ghraib and a downward spiral of an illegal act 
of aggression to a great American who died a hero's death.
    Over a month after Pat's death when it became clear that it 
would no longer be possible to pull off this deception, a few 
of the facts were parceled out to the public and to our family.
    General Kensinger was ordered to tell the American public, 
May 29th, 5 weeks later, that Pat died of fratricide but with a 
calculated and nefarious twist. He stated: ``There was no one 
specific finding of fault'' and that he ``probably died of 
fratricide.''
    But there was specific fault, and there was nothing 
probable about the facts that led to Pat's death. The most 
despicable part of what General Kensinger told the American 
public was when he said, ``The results of this investigation in 
no way diminish the bravery and sacrifice displayed by Corporal 
Tillman.''
    This is an egregious attempt to manipulate the public into 
thinking anyone who would question this 180-degree flip in the 
narrative would be casting doubt on Pat's bravery and 
sacrifice. Such questioning says nothing about Pat's bravery 
and sacrifice anymore than the narrative for Jessica diminishes 
her bravery and sacrifice. It does, however, say a lot about 
the powers who perpetrated this.
    After the truth of Pat's death was partially revealed, Pat 
was no longer of use as a sales asset and became strictly the 
Army's problem. They were now left with the task of briefing 
our family and answering our questions. With any luck, our 
family would sink quietly into our grief, and the whole 
unsavory episode would be swept under the rug. However, they 
miscalculated our family's reaction.
    Through the amazing strength and perseverence of my mother, 
the most amazing woman on Earth, our family has managed to have 
multiple investigations conducted. However, while each 
investigation gathered more information, the mountain of 
evidence was never used to arrive at an honest or even sensible 
conclusion.
    The most recent investigation by the Department of Defense 
Inspector General and the Criminal Investigative Division of 
the Army concluded that the killing of Pat was ``an accident.''
    The handling of the situation after the firefight was 
described as a compilation of ``missteps, inaccuracies and 
errors in judgment which created the perception of 
concealment.''
    The soldier that shot Pat admitted in his sworn statement 
that just before he delivered the fatal burst from about 35 
meters away, that he saw his target waving hands, but he 
decided to pull the trigger anyway. Such an act is not an 
accident. It is a clear violation of the rules of engagement.
    Writing up a field hospital report stating that Pat 
``transferred to intensive care unit for continued CPR'' after 
most of his head had been taken off by multiple 5.56 rounds is 
not misleading.
    Stating that a giant rectangle bruise covering his chest 
that sits exactly where the armor plate that protects you from 
bullets as being ``consistent with paddle marks'' is not 
misleading. These are deliberate and calculated lies.
    Writing a Silver Star award before a single eye witness 
account is taken is not a misstep. Falsifying soldier witness 
statements for a Silver Star is not a misstep. These are 
intentional falsehoods that meet the legal definition for 
fraud.
    Delivering false information at a nationally televised 
memorial service is not an error in judgment. Discarding an 
investigation that does not fit a preordained conclusion is not 
an error in judgment. These are deliberate acts of deceit.
    This is not the perception of concealment. This is 
concealment.
    Pat is, of course, not the only soldier where battlefield 
reality has reached the family and the public in the form of a 
false narrative.
    First Lieutenant Ken Ballard died in Najaf, Iraq, just 1 
day after Pat's fratricide went public. His mom, Karen 
Meredith, was told that Ken was killed by a sniper on a 
rooftop. Fifteen months later, she found out that he was killed 
by an unmanned gun from his own vehicle.
    Private Jesse Buryj was killed May 5, 2004, in Iraq. His 
family was told he was killed in a vehicle accident. A year 
later they received the autopsy report, and they found that he 
was shot in the back. The Army was forced to concede that he 
was accidentally shot by a Polish soldier. Just recently, out 
of nowhere, a lieutenant showed up at their family's house and 
told them that an officer in his own unit had shot him. They 
are still looking for answers.
    Sergeant Patrick McCaffrey was killed June 22, 2004, from 
what the family was told ``an ambush by insurgents.'' Two years 
later, they found out that those insurgents happen to be the 
same Iraqi troops that he was training. Before his death, he 
told his chain of command that these same troops that he was 
training were trying to kill him and his team. He was told to 
keep his mouth shut.
    About a year ago, I received a phone call. I was at my 
mom's house, and it was an emergency breakthrough from the 
operator. It happened to be a woman named Dawn Hellermann from 
North Carolina, so it was 2 a.m., her time.
    Her husband, Staff Sergeant Brian Hellermann was killed in 
Iraq. She was tired of receiving new official reasons why her 
husband had died. She was desperate for help, so she called us. 
The system had failed her.
    Those soldiers deserve better, and their families deserve 
better.
    Our family has relentlessly pursued the truth on this 
matter for 3 years. We have now concluded that our efforts are 
being actively thwarted by powers that are more important, 
excuse me, that are more interested in protecting a narrative 
than getting at the truth or seeing that justice is served.
    That is why we ask Congress, as a sovereign representative 
of the whole people, to exercise its power to investigate the 
inconsistencies in Pat's death and the aftermath and all the 
other soldiers that were betrayed by this system.
    The one bit of truth that did survive these manipulations 
is that Pat was and still is a great man. He is the most 
wonderful older brother to ever exist. Pat wanted to leave a 
positive legacy based on his actions, and he did that. But 
Pat's death at the hands of his comrades is a terrible tragedy.
    But the fact that the Army and what appears to be others 
attempted to hijack his virtue and his legacy is simply 
horrific. The least this country can do for him in return is to 
uncover who is responsible for his death, who lied and covered 
it up, and who instigated those lies and benefited from them. 
Then ensure that justice is meted out to the culpable.
    Pat and these other soldiers volunteered to put their lives 
on the line for this country. Anything less than the truth is a 
betrayal of those values that all soldiers who have fought for 
this Nation have sought to uphold.
    Thank you for your time.
    Chairman Waxman. Thank you very much, Mr. Tillman. Thank 
you very much for your testimony.
    Mrs. Tillman, I know he was speaking for both of you. Is 
there anything you want to add briefly?
    Mrs. Mary Tillman. No.
    Chairman Waxman. No, OK.
    Ms. Lynch, we are pleased to have you here.
    Make sure the button is pushed on the base of the mic. I am 
reluctant to tell you to pull it too close to you but see 
whatever is comfortable.

                   STATEMENT OF JESSICA LYNCH

    Ms. Lynch. Chairman Waxman and distinguished members of the 
committee, it is an honor to be with you here today, and I am 
grateful to have this opportunity.
    I have been asked here today to address misinformation from 
the battlefield. Quite frankly, it is something that I have 
been doing since I returned home from Iraq. However, I want to 
note for the record that I am not politically motivated in my 
appearance here today.
    I lived the war in Iraq, and today I still have family and 
friends fighting in Iraq. My support for our troops is 
unwaivering.
    I believe this is not a time for fingerpointing. It is a 
time for truth, the whole truth, versus hype and 
misinformation. Because of the misinformation, people tried to 
discount the realities of my story, including me, as part of 
the hype. Nothing could be further from the truth.
    My experiences have caused a personal struggle of all sorts 
for me. I was given opportunities not extended to my fellow 
soldiers, and I embraced those opportunities to set the record 
straight. It is something that I have been doing since 2003. It 
is something that I imagine I will have to do for the rest of 
my life.
    I have answered criticisms for being told, being paid to 
tell my story. Quite frankly, the injuries I have will last a 
lifetime, and I have a story to tell, a story that needed to be 
told so people would know the truth.
    I want to take a minute to remind the committee of my true 
story. I was a soldier.
    In July 2001, I enlisted in the Army with my brother, Greg. 
We had different reasons of why to join, but we both knew that 
we wanted to serve our country. I loved my time in the Army, 
and I am grateful for the opportunity to have served the 
country in a time of crisis.
    In 2003, I received word that I would be deployed. I was 
part of a 100-mile long convoy going to Baghdad. I drove a 5-
ton water buffalo truck. Our unit had some of the heaviest 
vehicles, and the sand was so thick that our vehicles would 
just sink. It would take us hours to just travel the shortest 
distance.
    We decided to divide our convoy up so the lighter vehicles 
could reach our destination, but first came the city of An 
Nasiryah and a day that I will never forget.
    The truck I was driving broke down, and I was picked up by 
my roommate and best friend, Lori Piestewa, who was driving our 
First Sergeant Robert Dowdy. We also picked up two other 
soldiers from a different unit to get them out of harm's way.
    As we drove through An Nasiryah, trying to get turned 
around to leave the city, the signs of hostility were 
increasing with people with weapons on rooftops and the street 
watching our entire move.
    The vehicle I was riding in was hit by a rocket propelled 
grenade and slammed into the back of another truck in our unit. 
Three people in the vehicle were killed upon impact.
    Lori and I were taken to a hospital where she later died 
and I was held for 9 days. In all, 11 soldiers died that day, 6 
from my unit and 2 others. Six others from my unit were taken 
prisoner plus two others.
    Following the ambush, my injuries were extensive. When I 
awoke in the Iraqi hospital, I was not able to move or feel 
anything below my waist. I suffered a 6-inch gash in my head. 
My fourth and fifth lumbar were overlapping, causing pressure 
on my spine. My right humerus was broken. My right foot was 
crushed. My left femur was shattered.
    The Iraqis in the hospital tried to help me by removing the 
bone and replacing it with a 1940's rod that was made for a 
man.
    Following my rescue, the doctors at Landstuhl, Germany 
found in a physical exam that I had been sexually assaulted.
    Today, I still continue to deal with bowel, bladder and 
kidney problems as a result from the injuries. My left leg 
still has no feeling from the knee down, and I am required to 
wear a brace just to stand and walk.
    When I awoke, I did not know where I was. I could not move. 
I could not call for help. I could not fight. The nurses at the 
hospital tried to soothe me, and they even tried unsuccessfully 
at one point to return me to Americans.
    On April 1st, while various units created diversions around 
Nasiryah, a group came to the hospital to rescue me. I could 
hear them speaking in English, but I was still very afraid.
    Then a soldier came into the room. He tore the American 
flag from his uniform, and he handed it to me in my hand, and 
he told me: We are American soldiers, and we are here to take 
you home.
    I looked at him and I said, yes, I am an American soldier 
too.
    When I remember those difficult days, I remember the fear. 
I remember the strength. I remember the hand of that fellow 
American soldier reassuring me that I was going to be OK.
    At the same time, tales of great heroism were being told. 
At my parents' home in Wirt County, WV, it was under siege by 
media, all repeating the story of the little girl Rambo from 
the hills of West Virginia who went down fighting. It was not 
true.
    I have repeatedly said when asked that if the stories about 
me helped inspire our troops and rally our Nation, then perhaps 
there was some good.
    However, I am still confused as to why they chose to lie 
and tried to make me a legend when the real heroics of my 
fellow soldiers that day were legendary. People like Lori 
Piestewa and First Sergeant Dowdy who picked up fellow soldiers 
in harm's way or people like Patrick Miller or Sergeant Donald 
Walters who actually did fight until the very end.
    The bottom line is the American people are capable of 
determining their own ideals for heros. They don't need to be 
told elaborate lies.
    My hero is my brother, Greg, who continues to serve his 
country today. My hero is my friend, Lori Piestewa, who died in 
Iraq but set an example for a generation of Hopi and Native 
American women and little girls everywhere about the 
contributions just one soldier can make. My hero is every 
American who says my country needs me and answers that call to 
fight.
    I had the good fortune and opportunity to come home and to 
tell the truth. Many soldiers, like Pat Tillman, did not have 
that opportunity.
    The truth of war is not always easy. The truth is always 
more heroic than the hype.
    Thank you.
    [The prepared statement of Ms. Lynch follows:]

    [GRAPHIC] [TIFF OMITTED] T2898.010
    
    [GRAPHIC] [TIFF OMITTED] T2898.011
    
    [GRAPHIC] [TIFF OMITTED] T2898.012
    
    Chairman Waxman. Thank you very much, Ms. Lynch.
    Dr. Bolles.

                    STATEMENT OF GENE BOLLES

    Dr. Bolles. Mr. Chairman and members of the committee, 
thank you for inviting me here today.
    My name is Gene Bolles, and I am a neurosurgeon. 
Specifically, I specialize in neurotrauma, spine surgery and 
radial surgery.
    I graduated from the University of Michigan's Medical 
School and did my subsequent training at the University of 
Colorado Health Sciences Center in Denver, CO. I have over 30 
years of surgical experience.
    I was drafted into the military out of my training in 1965 
and served as a flight surgeon and subsequent division surgeon 
of the 8th Infantry Division in Germany.
    For the next several decades, I worked as practitioner of 
neurosurgery in the Boulder, Denver area where I performed 
hundreds of surgeries on victims of trauma.
    In 2001 before the attacks of September 11th, I was asked 
to apply for the position of Chief of Neurosurgery at Landstuhl 
Regional Medical Center in Germany. Through a competitive 
process, I was selected for the position and commenced my 
service in November 2001.
    I served as Chief of Neurosurgery as a Department of 
Defense contractor for over 2 years, leaving in February 2004. 
For the first year and a half, I was the only neurosurgeon 
between Okinawa and the United States. After the Iraqi war, 
Iraqi part of the war began, OIF, more neurosurgeons were added 
to our staff to handle the increased number of expected 
patients.
    During my time as the Chief of Neurosurgery there, patients 
from Afghanistan, Kosovo, Kuwait, Iraq, amongst elsewhere, were 
flown in to Landstuhl Regional Medical Center throughout the 
day. I operated on and oversaw the treatment of many wounded 
U.S. combat forces.
    I am here today to discuss my treatment of Private Jessica 
Lynch and the misfortune that surrounded her condition.
    Fewer than 2 weeks after she was captured in Iraq, she 
arrived in Germany for medical treatment. She had severe 
injuries that required a number of surgeries. It is these 
injuries where truth has been coupled perhaps with fiction that 
I am here to discuss today.
    Private Lynch was captured by the Iraqis on March 23rd. 
U.S. forces rescued her from an Iraqi hospital on April 1st, 
and she was thereafter medically evacuated to Germany.
    I examined Private Lynch and looked for evidence. I did a 
complete exam on her and, specifically though, I was looking 
for evidence of gunshot wounds in addition to her other 
injuries as we were told that she had been shot. I saw no 
evidence of gunshot wounds.
    I looked for metallic fragments on x-rays. I saw none. I 
saw no injuries that looked like a gunshot wound to my eye. I 
saw no entrance and exit wounds that appeared to be 
corroborative of that.
    She did have some puncture wounds of her extremities, but 
they were not the kind that I had ever seen made by a bullet 
wound. They were consistent with the injuries that had been 
described, that she had undergone perhaps a motor vehicle type 
of accident.
    At some point during our treatment of Private Lynch, one of 
the trauma surgeons that was involved in her care was 
evaluated, and there was perhaps a difference of opinion 
although I did not discuss that with him. He made the statement 
that he thought these puncture sites were gunshot wounds. I did 
not and do not agree with that assessment. I saw no clinical or 
physical evidence that was the case.
    I proceeded to operate on Private Lynch where we performed 
an operation for her lumbar spine and her fractures. For the 
time Private Lynch was in intensive care, I saw her on a daily 
basis. As with other patients, I checked in with her to monitor 
her status. I asked how she was feeling, etc.
    And I also asked permission to contact her parents, and I 
called her parents after the surgery before they came to 
Germany. I recall being asked by, I believe, her father if she 
had been shot, and I said, no.
    I never leaked any other information about my patient's 
condition to the press. Although several reporters have asked 
me from time to time, I have declined to discuss any details of 
her care other than the fact that I was involved in it.
    I am happy to answer any questions that the committee and 
subcommittee may have about my time at Landstuhl Regional 
Medical Center.
    Thank you.
    Chairman Waxman. Thank you very much, Dr. Bolles.
    We will now proceed to questions from the members of the 
committee. Each side will initially control 10 minutes by the 
Chair and by the ranking member, and then we will proceed to 5 
minute rounds in order prescribed under the rules.
    For the 10 minutes that we have on our side, I want to 
yield to the gentleman from Connecticut, Mr. Waxman.
    Mr. Murphy. Thank you very much, Mr. Murphy.
    I think I can take the liberty of speaking for all the 
members of the committee on both sides of the aisle to say to 
the Tillmans, to Ms. Lynch, we stand in awe of you this morning 
to present this testimony before this committee.
    The only appropriate place to start is where Mr. Waxman 
began his opening remarks, to express our immeasurable 
gratitude to the courage of the young Americans who have put 
themselves in harm's way on behalf of our country in Iraq and 
Afghanistan.
    Having just returned with four other members of this 
committee from the fronts in both Iraq and Afghanistan, I know 
personally how much our soldiers are sacrificing. Quite 
frankly, as one of the youngest Members of this Congress, I 
also know that my ability to serve here in an air-conditioned 
hearing room such as this is only made possible by the 
sacrifices and decisions to serve made by my contemporaries, 
two of which are sitting before us today.
    Let me just say this before I ask a few questions to the 
Tillmans and Ms. Lynch.
    You have had amazing courage to come here and speak today, 
and I think it is important to say this. Courage and bravery 
don't just come in one form. The very fact that you, Ms. Lynch, 
and you, Mr. Tillman, and you brother volunteered to protect 
this country at such gave risk to yourself, was and is an act 
of great courage and selflessness.
    But if this country continues to glorify the bravery of 
battlefield confrontations, it in some way diminishes the value 
of another increasingly lost American virtue, that is, telling 
the truth. It is too bad that this government has made a 
seemingly simple act of telling the truth an act of bravery, 
but it is, and there are no better examples than Jessica Lynch 
and the Tillman family.
    You could have kept silent and accepted the stories that 
were handed to you by your government, but you displayed a 
courage not often seen in today's world. You chose truth over 
personal glorification. I think that speaks a lot.
    I think I can speak for a lot of us up here when I say I 
wish there were more of you.
    I especially want to express my condolences to the Tillman 
family. This being the third anniversary of Corporal Tillman's 
death, I know it must be very hard for you to come here today 
and especially for you, Mr. Tillman, to speak in public for the 
first time.
    The purpose of today's hearing, as Mr. Waxman said, is to 
examine how these stories, these false stories were invented, 
how they were spread and how they developed into two defining 
moments of the war.
    The question we will try to answer today is simple: Were 
these false stories the result of an unfortunate series of 
miscommunications and inaccurate battlefield reports or were 
they propaganda designed to influence public opinion by 
misleading the Nation about what really happened?
    Mr. Tillman, if I can start with your story, there was a 
lot of publicity about your brother leaving his career in 
professional sports, about your decision to leave a pro 
baseball contract. There was obviously an increased amount of 
publicity when things went horribly wrong.
    But I want to get back to the beginning of this story. I 
want to talk about why you and your brother decided to give up 
very lucrative careers back here in the United States and join 
the military. It had nothing to do with publicity, did it, Mr. 
Tillman?
    Mr. Kevin Tillman. No, Mr. Murphy, it didn't, but I am not 
at liberty and I am not comfortable with talking to you or 
anybody else why we decided to join. That is a personal thing, 
my apologies.
    Mr. Murphy. That is perfectly respectable. I think the very 
fact this was a family that made multiple decisions to enter 
the military, as Ms. Lynch's family did, I think shows that 
this often is a sacrifice made not just by individuals but made 
by entire families.
    This is a question for either Mr. Tillman or Mrs. Tillman. 
You spoke about the consequences and the circumstances 
surrounding the incident you spoke about, the awarding of the 
Silver Star to your brother. After all this, you spoke that you 
learned that he was actually killed by his own platoon, and 
this was more than a month after his death.
    I can certainly respect if this is not something you want 
to talk about, but I think it may be interesting for this 
committee to learn a little bit more about how you found out 
that his death was a result of friendly fire and how your 
family received this news when you were finally told over a 
month after the initial incident, that what you believed was 
the case was not truly the case.
    Mr. Kevin Tillman. Yes, sir. When I went, when I came back 
from San Jose, CA, the memorial service, I went back to work at 
Fort Lewis, WA, and my platoon and company were still in 
Afghanistan, and I was there working for about 2 weeks.
    When they got back, I helped pack up all their stuff, put 
it in the platoon AO, and everything was kind of no big deal. I 
did PT with everybody, the physical training. I actually did 
physical training with two of the guys that were on the 
vehicle.
    I know everybody pretty well. But I did physical training 
with everybody.
    And then, at around 10, I ended up speaking. I was pulled 
in by my chain of command, and they told me that Pat 
potentially died of fratricide, and it was very generic. They 
saw a .50 cal round in a rock, and they didn't explain it very 
well. So I didn't. I was upset, but it didn't make any sense 
based on what I knew of it, the story that I was told.
    Eventually, the next day I spoke with Colonel Bailey. I 
think it was Lieutenant Colonel Bailey. At the time, he was our 
battalion commander, and he went over it in detail, and that is 
when--it was a Tuesday. It was a month and 3 days after the 
fact, I found out, and he went through the whole thing, and it 
was without a doubt. I mean they knew immediately that it was 
friendly fire.
    So I told Marie, Pat's wife, that evening when she got back 
from work. She had heard a lot of bad news over the phone, so I 
decided to wait until she got back. I ended up holding off.
    I wanted to go on Friday to tell my parents because they 
also got too much bad news, and I ended up telling my mom, my 
dad and younger brother that he, in fact, died of fratricide.
    So it was about 5 weeks. That is kind of the gist of the 
narrative there.
    Mr. Murphy. Mr. Tillman, we know now that in the days and 
weeks before that, there were a lot of people in the military 
that knew that your brother was killed by his own platoon, and 
they knew this very soon after his death.
    I know on our second panel, we will hear from Specialist 
Bryan O'Neal who was with Corporal Tillman when he was shot, 
and he will testify that he knew right away that it was 
friendly fire and that he promptly reported this up the chain 
of command.
    If you could talk about the days and weeks following the 
initial disclosure that this was an incident of friendly fire 
and how you came to understand that this wasn't known by the 
military a month after the initial story came out, that this 
was in fact known fairly immediately by the military through 
the chain of command that those on the ground knew that this 
was friendly fire.
    If you could talk a little bit about how then your family's 
reaction came to the fact that military officials knew but 
didn't tell you that your brother had been killed by friendly 
fire early after the incident.
    Mr. Kevin Tillman. They gave us the report, and it was that 
we kind of have to dig through it. They didn't tell us that 
they knew. They played it off like it was potential. It was 
possible, and you start reading the report.
    And we got pretty good information from Lieutenant Colonel 
Bailey actually did do what seems like a pretty honorable job 
when he came to the house and he briefed us off of the first 
investigating officer's report.
    He actually used the first investigating officer's report 
which happened to get lost in the process. They don't know 
where it is anymore apparently, but they used his report. So 
there was a lot of accuracies.
    When we went back to get the full briefing for the family, 
it was really watered down. I mean it was, they started kind of 
pushing things around, and they made it really nebulous when 
people found out, and it was, they didn't want to give us a 
half-baked. I think General McCrystal didn't want to give us a 
half-baked answer.
    So it looked like--I don't know how to answer that question 
accurately. It was just all over the charts. You get a little 
nugget here, and then you get a bunch of well, we didn't know. 
I didn't know. This person didn't know.
    But when you go through the documents, the chain of 
command, General Kensinger, which is a three-star, knew in 2 
days.
    Mr. Murphy. Family discovered fairly quickly that you were 
going to have to press this, that your family was going to have 
to push the investigation to get to it.
    Mr. Kevin Tillman. It was a slow process because you don't 
expect it. You know. It is like I work, I mean I work with 
these guys. It was understandable. OK, it was friendly fire. 
That stuff happens. We are very aware of friendly fires. We are 
not naive to the fact that stuff happens.
    The problem was based on the facts, it wasn't just a 
friendly fire. It was an engagement with that entire hillside 
was scared for their life.
    This squad leader actually got on grass and was going to 
shoot at the vehicle, and this is a squad leader that didn't 
shoot a round the entire time and was just coordinating 
everything.
    It was very, it was a scary situation, and they kind of 
kept that from everybody.
    Mr. Murphy. What has been your experience with your ability 
to get information from the military, whether that be access to 
people that were on the ground, reports filed afterwards?
    What has been your experience with the willingness of the 
military to share with you and other families that kind 
information?
    Mr. Kevin Tillman. It has been slow, kind of a slog, but I 
would defer that question. My mom has been kind of hot on the 
trail for a long time. She has really been pressing hard. I 
would defer a lot of the type of information and the powering 
through it. I didn't get very far with my, on my end, my chain 
of command. They just kind of pushed me around.
    Chairman Waxman. Thank you, Mr. Murphy. Your time is 
expired.
    Mr. Murphy. Thank you.
    Chairman Waxman. Did you want to comment on that, Mrs. 
Tillman?
    Mrs. Mary Tillman. All right. I will start out, I suppose, 
and I want to make this very clear because I think it is very 
important.
    When Colonel Bailey came to our home, he was received very 
well.
    We learned about the friendly fire. I actually got a phone 
call from the Arizona Republic before Kevin had a chance to 
tell us that Pat was killed by fratricide. A reporter from the 
Arizona Republic called me on Friday, May 28th, and asked me 
what I thought of the news the military had just released, and 
I didn't know what he was talking about.
    And he said, oh, well, you know. Excuse me, I am sorry.
    And I wouldn't let him off. I said, look, you called me. 
What are you talking about?
    And he said, well, the Army has just come to the conclusion 
that Pat was probably killed by friendly fire.
    I know friendly fire is a part of war. The whole family 
does. I used to live near Gettysburg. I am a history major. It 
is like, of course, it is a reality. It was tragic, and we were 
devastated. It happens, and we could accept that. He was still 
gone.
    Then Colonel Bailey comes to the house, and he is very well 
received. I mean he is a very, OK, he was very kind.
    He was very kind. He was very warm. He seemed to care a lot 
about Pat and Kevin. He was very concerned. So we really 
believed everything he told us.
    And there were some things that I got pretty upset about, 
about the humvee seeming to have more significance than the 
mission, the fact that they split troops because I thought, 
Military 101, you don't split your troops. I heard a lot about 
how Robert E. Lee got away with it, but you just shouldn't do 
it, and I remember that from being a child. So I pressed him on 
certain things, but I really took him at his word.
    And then, as Kevin said, about 3 weeks later, the family 
went to Fort Lewis, WA to get an official briefing, and Colonel 
Bailey and Colonel Nixon briefed us with an entourage of 
various ranks of soldiers behind us.
    And the story started changing because initially we were 
told that the Afghan was standing on a ridge, and he was 
shooting over their heads, in other words, to allow them to be 
escorted through the canyon. And that is how this particular 
sergeant in the vehicle mistook him for an enemy, and we were 
told he was 200 meters away at that time.
    Well, then when we get up to Washington, all of a sudden 
this Afghan is no longer standing. We made a mistake. He was 
prone.
    Now how do you know? How can you be on a ridgeline in a 
prone position, shooting up here? I mean you would have to be a 
contortionist. And this Afghan soldier was shot eight times in 
the chest. So that really didn't add up to us.
    Colonel Bailey also told us that it really was kind of dark 
because when he came to our house, it wasn't that dark. All of 
a sudden, things started to change around.
    He told us that the driver of the vehicle actually 
recognized the Afghan as AMF. He saw soldiers on the ridgeline 
and the vehicles down the road before the sergeant shot the 
Afghan. And our family was appalled. It was like, well, how 
does he allow the other soldiers in the vehicle to keep 
shooting on that ridgeline about 400 meters, and they couldn't 
answer that question.
    Pat's father had asked ahead of time to get the official 
15-6 report before we went to this meeting so we would be 
prepared for questions.
    Chairman Waxman. The original which report?
    Mrs. Mary Tillman. Well, the original, it is the report. 
They do an investigation, I guess, when there is a fratricide 
or anything suspicious, and they didn't have it ready for us. 
They basically handed it to us warm out the door.
    Chairman Waxman. Mrs. Tillman.
    Mrs. Mary Tillman. I am sorry.
    Chairman Waxman. I want you to finish that sentence, but 
this is going to come out in the questions because a lot of 
Members want to ask you questions.
    Mrs. Mary Tillman. Right, OK. All right.
    Anyway, so we read this report on the airplane, and that is 
when we became absolutely appalled at what we were reading, and 
that is basically where the quest for the truth began.
    Chairman Waxman. Thank you very much.
    Mr. Davis.
    Mr. Davis of Virginia. Thank you.
    Let me just say to the Tillman family, my deepest 
condolences as well. Pat Tillman embodied what is best about 
America, giving up a career to go help his country. Then to be 
treated this way in terms of trying to get your answers out and 
not pulling them, I think is something this committee wants to 
get to the bottom. All of us do.
    I would start by asking what questions are still unanswered 
for you that this committee could help you get?
    Mrs. Mary Tillman. See this binder? That is about how many 
questions we have. I mean there are a lot of questions. I mean 
I gave questions to certain members of the panel. I just 
assumed maybe if you ask us questions----
    Mr. Davis of Virginia. Our side didn't get any of those 
questions.
    Mrs. Mary Tillman. OK, I apologize for that. Basically, if 
anyone asked us, we would give them questions.
    Mr. Davis of Virginia. Well, let me ask you. I have a 
couple of minutes.
    Mrs. Mary Tillman. Right.
    Mr. Davis of Virginia. Go through a couple of the largest 
inconsistencies you see and where we could get to.
    Mrs. Mary Tillman. Well, I think that the Silver Star has 
been focused on a great deal, and one reason that has been the 
case is because it leaves a paper trail. It is not the most 
outrageous lie or cover-up that is part of this story, but it 
does leave a paper trail. So we would like to know who actually 
decided to give Pat the Silver Star.
    I mean it is not ordinary that you will give a Silver Star 
to a soldier that is killed by friendly fire, and yet they knew 
immediately he was killed by friendly fire, and this particular 
award was written up.
    And, in fact, you already know from the memo that General 
McCrystal sent to General Abizaid, General Brown and Kensinger, 
General Kensinger, that they were aware. And he admits in 
there, even though he was killed by friendly fire, we are going 
to write this award. Now I find that particularly peculiar.
    Mr. Davis of Virginia. Do you have any questions about the 
incident itself that are still unanswered?
    I know the story has changed several times. You indicated 
earlier as the story changed, it raised more questions. Are 
there still unanswered questions about that we can help with?
    Mrs. Mary Tillman. Oh, yes, there is a lot of questions 
about the circumstances. Yes. We are very perplexed. First of 
all, why were the troops split in the first place when it was 
not necessary?
    Why wasn't an option given to Lieutenant Uthlaut to destroy 
the vehicle rather than hold these soldiers up in the village 
and frustrate this platoon leader?
    That also goes down to why is it that there is evidence of 
broken rules of engagement throughout all of the investigations 
and yet the CID, the criminal investigators, come to the 
conclusion that no ROE violations were broken?
    I mean the evidence is there. Anyone who has looked at 
these documents, and members of this panel have seen these 
documents, and they have broken ROE violations all over the 
place. Yet, the criminal investigators said, well, no, there 
was no ROE broken. So we find that to be horrific.
    Mr. Davis of Virginia. Well, we will continue to look at 
this and write a report to gather both sides on this. I 
appreciate that.
    Dr. Bolles, in April 2003.
    Chairman Waxman. Mr. Davis, will you yield to me for just a 
second? We will give you additional time.
    Mr. Davis of Virginia. Sure.
    Chairman Waxman. One of the things that we want to do is to 
leave the record open for you to give us additional questions 
that you want us to get the answers to. That is an important 
part of what our job must be.
    Thank you, Mr. Davis.
    Mr. Davis of Virginia. Thank you.
    This is not a partisan exercise. Mr. Waxman and I have 
worked on a lot of these things together.
    Mrs. Mary Tillman. Yes, I know.
    Mr. Davis of Virginia. We want to get to the bottom of it 
and help you get through that.
    Mrs. Mary Tillman. That is fine. I don't look at it as 
partisan.
    Mr. Davis of Virginia. In fact, not just you want closure. 
I think the public wants closure too because of the 
contradictions that have come through during this time.
    Dr. Bolles, in April 2003 when Pfc. Lynch was in your care, 
did you speak with any reporters about her case either on or 
off the record that you can remember?
    Dr. Bolles. The only reporter that I spoke to was answering 
the question of did I know or had I operated on or dealt with 
Private Lynch, and that was shortly thereafter from a reporter 
from Boulder, CO.
    Mr. Davis of Virginia. Did any reporters ask you to confirm 
that Private Lynch might have been shot?
    Dr. Bolles. No. I received a number of requests, initially 
turned all of those over to the public information officer at 
Landstuhl at the time.
    Mr. Davis of Virginia. Were you Private Lynch's primary 
physician?
    Dr. Bolles. Well, I would say there was a team of 
physicians. I was her neurosurgeon. There was a trauma surgeon. 
There were orthopedic surgeons, and we were all involved as a 
team.
    Mr. Davis of Virginia. Was there any disagreement among the 
team about what could have caused her injuries?
    Dr. Bolles. Not at that time to my knowledge, no.
    Mr. Davis of Virginia. Because press reports at that time 
quoted anonymous medical staff or officials saying that some of 
her wounds may have been caused by gunfire. Any idea where that 
might have come from?
    Dr. Bolles. Only on what I mentioned in my statement, that 
there was the trauma surgeon was questioning the puncture sites 
while we were in the operating room. I didn't debate it with 
him or even, I don't know what happened to that afterwards.
    Mr. Davis of Virginia. Were you or are you aware of anyone 
who might have been directed by any officials to diagnose her 
wounds as having been caused by gunfire?
    Dr. Bolles. No, sir.
    Mr. Davis of Virginia. Do you believe others on her 
treatment team were directed?
    Dr. Bolles. I am sorry, sir?
    Mr. Davis of Virginia. Do you have any indication that 
anybody else on the team might have been directed to find that?
    Dr. Bolles. I do not.
    Mr. Davis of Virginia. OK, thank you.
    Mr. Burton.
    Mr. Burton. Thank you, Mr. Davis.
    Let me just say, first of all, that everybody on this 
panel, I am confident, shares your grief. It must be a horrible 
thing to find out that you have lost a loved one and you 
haven't gotten the truth. So we are very sympathetic to what 
you have said today.
    It is unfortunate, I think, in combat that sometimes 
military personnel, the higher-ups, want to create heroes and 
create stories that probably helps their cause, and that should 
not happen. It should not happen especially at the expense of 
people like Mr. Tillman and Ms. Lynch.
    I think everybody in combat over there, those who have died 
and those who have been wounded and those who are still in 
combat, are heroes, and this Nation should revere every one of 
them and what they have done.
    So if you have been misled and it has hurt your families, I 
personally want to apologize to you. I hope that you will give 
us all the questions that you have. I know on our side and I am 
sure the other side wants to get to the bottom of it as quickly 
as possible so that you can be assured that you have all of the 
facts.
    Hopefully, your testimony today will lead to these things 
not happening again in the future and maybe some other brothers 
or parents or families won't have to suffer because they got 
misinformation.
    I think your brother and you leaving very professional 
careers to go into the service of your country should be 
congratulated, and I think you are both heroes. I am very sorry 
that your brother was lost.
    Ms. Lynch, I am sorry you had to go through all the things 
that you went through, and we appreciate your story here today.
    With that, I yield back to Mr. Davis.
    Chairman Waxman. Thank you very much. The gentleman yields 
back his time.
    Let me just point out to you that this whole investigation 
was something that Tom Davis, when he as chairman of the 
committee, suggested we do and we are working together on this. 
This is not a partisan issue in any way, shape or form.
    You want our sympathies, you want our apologies, but you 
also want the truth, and that is what we are going to try to 
get for you.
    Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    I, too, express my sympathy. I thank you, too, the Tillman 
family for your sacrifice and to Ms. Lynch, I thank you for 
your service and to you, Dr. Bolles, I thank you.
    To the Tillman family, Mr. Tillman, you said that you 
believe that the military was hoping that your family would 
sink quietly in your grief. I want to thank you for not sinking 
quietly in your grief.
    We have an e-mail that was written on April 28, 2004, 6 
days after Pat Tillman's death. I don't know if you have seen 
this. It is up there on the screen. It describes how the White 
House was asking for information about Corporal Tillman for the 
President to use in a speech at the White House Correspondents 
Dinner.
    I would like to make this e-mail a part of the record, Mr. 
Chairman.
    Chairman Waxman. Without objection, that will be the order.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2898.013
    
    Mr. Cummings. Let me read you what the e-mail said in part: 
``Just received a call from Mr. Currin, White House 
speechwriter. Mr. Currin said that information is for the 
President's speech at the Correspondents Dinner this coming 
Saturday. It will probably be telvised by C-SPAN.''
    The next day, April 29, 2004, an urgent communication was 
sent to the highest levels of the Army command structure 
alerting them that friendly fire was the suspected cause of 
death. This communication is called a Personal 4, that is, a P4 
memo. As I understand it, P4 memos are military communications 
that require special handling.
    Mr. Tillman, you probably know more about this than I do, 
but from what I have been told about P4 memos, they are for 
eyes only communications, meaning that the addressee must open 
it personally and read it immediately. Are you familiar with 
that?
    Are you aware of that type of memo?
    Mr. Kevin Tillman. I am not, sir. I mean I understand it. I 
don't know any more than you do. I was an enlisted guy, E4.
    Mr. Cummings. I understand.
    Mr. Kevin Tillman. I didn't get up that high.
    Mr. Cummings. I understand.
    This P4 memo was sent by General McCrystal who was your 
brother's regiment commander in Afghanistan to three high 
ranking generals including General Kensinger, the head of 
Special Operations and General Abizaid, the head of Central 
Command.
    The P4 warns: `` It is highly possible that Corporal 
Tillman was killed by friendly fire.'''
    It seems to be responding to inquiries from the White 
House, and here is what it says: ``POTUS''--meaning President 
of the United States--``and the Secretary of the Army might 
include comments about Corporal Tillman's heroism and his 
approved Silver Star medal in speeches currently being 
prepared, not knowing the specifics surrounding his death.''
    It goes on to express concern that the President or Defense 
Secretary might suffer ``public embarrassment if the 
circumstances of Corporal Tillman's death become public.''
    I would also like to make this P4 memo, part of the hearing 
record.
    Chairman Waxman. Without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2898.014
    
    [GRAPHIC] [TIFF OMITTED] T2898.015
    
    [GRAPHIC] [TIFF OMITTED] T2898.016
    
    [GRAPHIC] [TIFF OMITTED] T2898.017
    
    [GRAPHIC] [TIFF OMITTED] T2898.018
    
    [GRAPHIC] [TIFF OMITTED] T2898.019
    
    Mr. Cummings. One question we have is whether this P4 memo 
made it to the White House, and here is what we do know. On 
April 28th, the White House asked for information about Pat 
Tillman for a speech the President was giving. The next day, 
the P4 memo was sent, stating that Pat Tillman was killed by 
friendly fire and warning the President against mentioning it.
    When the President spoke at the Correspondents Dinner, he 
was careful in his wording. He praised Pat Tillman's courage 
but carefully avoided describing how he was killed.
    It seems possible that the P4 memo was a direct response to 
the White House's inquiry. If that is true, it means that the 
White House knew the true facts about Corporal Tillman's death 
before the memorial service and weeks before the Tillman family 
was told.
    Mr. Tillman, do you know whether the Army ever investigated 
how high up the chain of command this information went and, 
second, do you think this ought to be investigated now? You or 
Mrs. Tillman.
    Mr. Kevin Tillman. I don't know how far they went up. It 
looks like they stopped, the Department of Defense. Looks like 
they stopped at about General Kensinger. But it seems pretty 
disingenuous.
    I don't have the answers because these things get 
piecemealed to us whether they are leaked to the press or 
whatever. That is kind of why we were hoping we could get to 
you guys because you have that access.
    My mom specifically, among a lot of other people, have 
really worked hard to gather information and try and figure out 
through all these redactions, to figure out who is who, and we 
are just figuring out. It took us like 9 months to figure out 
who actually did the investigation, the second one, well, the 
first one, the first official one. So it is tough to get 
information, and that is why.
    It is a bit disingenuous to think that the administration 
did not know about what was going on, something so politically 
sensitive. So that is kind of what we were hoping you guys 
could get involved with and take a look. I mean we only can go 
so far. We don't have access to these people. We don't have 
access to the unredacted information. We are kind of 
landlocked.
    Mr. Cummings. I see my time is up, but we will do the best 
we can.
    Mr. Kevin Tillman. Thank you, sir.
    Chairman Waxman. Thank you, Mr. Cummings.
    Mrs. Mary Tillman. Can I say something to that, please?
    Chairman Waxman. Yes.
    Mrs. Mary Tillman. Can I say something to that?
    I will tell you what we do know. Is my mic on?
    OK, I have been doing a lot of reading about Rumsfield, 
former Secretary of Defense Rumsfeld, and I believe just from 
what I have learned about him as a person and his expectations 
for his staff, that he would have had this information. He 
wasn't an individual who appreciated other people contacting 
the White House without it going to him first.
    I can't imagine that this memo could have been sent to 
General Abizaid and General Kensinger and General Brown with 
the expectation they would tell the President because Rumsfeld 
wouldn't want there to be any direct line because he liked to 
be the guy to go to the White House. So I believe that he would 
have intercepted this memo, first of all.
    The other thing is that he was, he had written Pat a 
letter, which I don't think he makes a practice of doing that, 
and it wasn't an extravagant letter by any stretch. It was 
about a two sentence letter, but the fact that he sent Pat the 
letter and Pat was a very high profile individual. He was 
probably the most high profile individual in the military at 
the time.
    The fact that he would be killed by friendly fire and no 
one would tell Rumsfeld is ludicrous because he would have had 
a fit. I mean to have it come, be known to him after the fact 
would be extremely upsetting to him.
    I have read a particular book on him, but there is a lot of 
research I have done on the internet. This is my conclusion. I 
have nothing to back it up. I admit that. I have no paper 
trail, no facts. But just knowing the type of individual and 
the way he operated, I believe these generals would be 
absolutely foolish to not tell him.
    Chairman Waxman. Mrs. Tillman, you don't know whether it 
was investigated all the way up the chain of command.
    Mrs. Mary Tillman. No, I don't know how far they pursued 
it.
    Chairman Waxman. But you think that it should be.
    Mrs. Mary Tillman. Yes, of course.
    Chairman Waxman. Thank you very much.
    The next in line is Mr. Duncan.
    Mr. Duncan. Well, thank you very much, Mr. Chairman.
    I don't have any questions, but I do want to say this. We 
all respect and admire and appreciate the military. I believe 
almost all of us do. Yet, we shouldn't worship the military.
    We need to recognize that our armed forces have become the 
most gigantic bureaucracy in the history of the world. Like any 
giant bureaucracy, they do many good things. Of course, any 
bureaucracy does it at great expense, but also any huge 
bureaucracy is often times wasteful and inefficient and almost 
every huge bureaucracy usually tries to cover up or gloss over 
its mistakes.
    I had a longtime friend of mine, another Republican Member 
of Congress from the West who told me a few weeks ago--and he 
has supported the war right from the beginning and still does--
that on our side we make the mistake of never questioning 
anybody who wears a badge or a uniform. The other side does 
that often times with labor and environmental groups even when 
they go to extremes.
    So both sides are guilty of this, but it is our duty when 
we see a major mistake.
    We need to support the military when they deserve to be 
supported, and I think we do that. On the other hand, we 
shouldn't let a patriotic fervor aroused during a time of war 
to lead us never to question any request the military makes, 
any expense they wish to incur and never to say anything about 
any mistake because it is our duty. We don't support the troops 
if we let our armed forces cover up or gloss over major 
mistakes.
    And so, I appreciate the fact, Mr. Chairman, that you are 
holding this hearing. I appreciate the fact that on our side 
former Chairman Davis has supported this. I think that simply 
holding this hearing will cause things like this not to happen 
in the future.
    Like everyone else, I wish to express my condolences to the 
Tillman family and also my appreciation to Ms. Lynch and Dr. 
Bolles for their service.
    Thank you very much.
    Chairman Waxman. Thank you, Mr. Duncan.
    Mr. Kucinich.
    Mr. Kucinich. Thank you, Mr. Waxman, for holding this 
hearing.
    I want to thank both the Lynch family and the Tillman 
family for the service which you have given to this country and 
continue to give to this country by standing here for the 
truth. It is our obligation to facilitate the production of the 
information that helps to underscore the importance of the 
truth.
    In connection with that, I would like to explore some 
questions relating to the destruction of physical evidence. If 
any of these questions become too sensitive, let me know.
    We have been told and according to documents that orders 
were given to destroy Corporal Tillman's clothes after the 
incident and to burn what was in the bag for security purposes 
and that a soldier testified they burned Corporal Tillman's 
uniform, socks and gloves and one armor plate on which it 
appeared there was an indentation in the top right corner and 
also burned a small notebook of Corporal Tillman.
    Now I know that, Mr. Tillman, your family has gathered a 
lot of evidence about the contradictions. When you looked at 
this matter relating to the destruction of evidence, do you 
have any comment as to why a medical doctor did not sign off on 
the destruction of the uniform?
    Mr. Kevin Tillman. No, sir. I don't know he would. I don't 
know why that would be. I don't know why any of his uniform 
would be cutoff because they refer to it as a biohazard. Well, 
Pat was a biohazard.
    And they avoid mentioning who cut the uniform off him, who 
made that decision to cut the uniform off because a lot of this 
narrative talking about how they gave him paddle marks.
    He had paddle marks on his chest. We had Dr. Buchs 
[phonetically], a respected guy, take a look at that stuff, and 
it was clearly bruises on his chest.
    And you have these inconsistencies. Why would they want to 
cut his clothes off? What possible reason would you cut his 
clothes off when he simply, he did not have essentially from 
here back? He had a facial structure and that was it. He got 
there in 90 minutes after the firefight, and he was, Pat was 
gone.
    And they tampered with his body. They cut his clothes off. 
They said that they tried to save him, transferred to ICU. I 
mean you can't. One, you can't leave paddle marks. It is a 
physical impossibility to leave paddle marks on somebody 90 
minutes after that fact.
    And that is excluding the other statement saying they came 
in there and Pat was on a table, and he was there with all his 
clothes on 30 minutes after the fact. So it is closer, looking 
like 120 minutes where his body really wasn't touched.
    And you have all this stuff that it just doesn't make any 
sense. Why would they cut it off? Why would they burn it? How a 
medical doctor would allow a bunch of sergeants to roll into 
his domain and have people taking his stuff off and burning it.
    And some of the e-mails are really strange, like quietly 
burning it. No one is watching. People looking behind their 
back. It is real weird.
    You have the same stuff we have.
    Mr. Kucinich. You talked about the extent of your brother's 
injuries. When you were told that CPR was attempted, 
understanding the extent of your brother's injuries, what did 
you think about that?
    Mr. Kevin Tillman. We didn't get the----
    Mr. Kucinich. After the fact, we all received information.
    Mr. Kevin Tillman. We didn't know it was CPR. We didn't 
know they tried to perform CPR.
    Mrs. Mary Tillman. Well, OK, let me explain. We got the 
autopsy. It is on.
    Chairman Waxman. Mrs. Tillman, could you speak close to the 
mic, please?
    Mrs. Mary Tillman. We received the autopsy about 5 months 
after Pat was killed, and on the autopsy it said that there 
were these three-and-a-half by three-fourths inch marks on his 
chest that were consistent with an attempt at defibrillation. 
And I though that was bizarre because the autopsy also said 
that Pat had no brain due to trauma. So it perplexed us that 
they would try to resuscitate a man who had no brain.
    And I was under the impression that he had died, and they 
deemed him dead immediately. So how could he even have paddle 
marks if he received so late?
    So I had my daughter-in-law, Pat's wife, get the field 
hospital report or FOA, the field hospital report, and we 
finally got it almost 9 months later, I guess.
    And I was absolutely shocked because the field hospital 
report doesn't say anything about difibrillation. It says CPR 
performed, transferred to ICU for continued CPR. And that was 
extremely strange because Pat was dead for 90 minutes before he 
got to the field hospital and he essentially had no head.
    Mr. Kucinich. Thank you, Mrs. Tillman.
    Mr. Chairman, I know my time for questions has expired. I 
just want to say to the Chair that it appears that there was an 
elaborate effort here to conceal the circumstances of Corporal 
Tillman's death, and the evidence that is being presented here 
seems to confirm that.
    Of course, the destruction of his notebook is something 
that I think this committee ought to be spending a little bit 
more time on as well.
    I thank you, Mr. Chairman.
    Chairman Waxman. Thank you, Mr. Kucinich.
    Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman.
    I want to thank all of you for being here, Mr. Tillman, 
Mrs. Tillman, Ms. Lynch, Doctor.
    My questions are, by definition, probably the result of a 
whole series of questions you have already heard. I am going to 
try and summarize. I appreciate that it is never pleasant to go 
through one of these, particularly reliving traumatic 
experiences, one, on the battlefield and, two, because of the 
battlefield.
    But I am trying to understand something related to our 
hearing, our deliberation, what we are doing, and let me 
characterize it very briefly.
    My youth was spent during the Vietnam War. I was a soldier 
in 1970, but I was an ROTC cadet on the Kent State campus in 
the early seventies, and that was a time in which they were 
spitting on military uniforms. It didn't matter if you were a 
private, a corporal, a sergeant or an officer, you were 
somebody that people could treat badly simply because you 
served in uniform.
    Apparently, they were mostly treating Members of Congress 
pretty well.
    Now we are dealing in kind of a new era in which we seem to 
want to say the soldiers is good, but they are bad.
    So I want to followup with just a couple of questions to 
try to make the record clear or have you make the record clear. 
It is two different situations, but if we can go back and 
forth, I think there is some similarity.
    Mr. Tillman, who are ``they'' in this case? Are ``they'' 
the soldiers who were part of the fratricide?
    Did they do something willfully wrong or did they do 
something that you want us to understand was just wrong today 
other than screw up and kill one of their colleagues?
    Mr. Kevin Tillman. Yes, sir. The firefight itself was due 
to, based on the evidence, it looks like it is gross 
negligence, but it looks like criminal intent too, criminal 
negligence which is what the first officer concluded, possibly 
criminal intent which he tried to push off to CID and somehow 
it never got to them.
    Mr. Issa. What you are saying is they fragged your brother 
deliberately?
    Mr. Kevin Tillman. No. There is a difference between 
homicide and criminal negligence. It is like if a kid is in the 
street and you are driving and you run into him. You just 
didn't see him, but yet you ran into him anyway. That is 
unfortunate, but you are going to be held accountable for 
driving into a kid standing in the street.
    Mr. Issa. Sure. My other committee I keep slipping to is 
Judiciary, so I have the good fortune of going back and forth 
between these two.
    You are saying they were improperly trained leading to 
mistakes made on the battlefield.
    Mr. Kevin Tillman. I didn't say improperly trained, sir.
    Mr. Issa. OK, they were properly trained, but they made 
mistakes.
    Mr. Kevin Tillman. I said they were out of control, sir.
    You are referring to the American soldiers that did this, 
sir. The ``they'' would be the American soldiers on that 
aspect. But if you are referring to the instance, yes, but 
outside of that, there are different layers.
    Mr. Issa. We have to establish the ``theys'' here. One 
``they'' are E1s, 2s, 3s, 4s, 5s, up to a lieutenant. That is 
one ``they.''
    In the aftermath, you are saying that ``they'' include a 
three-star general.
    Mr. Kevin Tillman. Yes, sir.
    Mr. Issa. And the entire chain of command.
    Mr. Kevin Tillman. Yes, sir.
    Mr. Issa. OK.
    Ms. Lynch, in your case, who are the ``theys'' that you 
think made your story which was originally true and simple into 
something that was untrue but more glorious?
    Ms. Lynch. I don't know exactly where it started out, but I 
know that ``they'' would be considered as part of the media for 
letting the story to keep going in such a way that they should 
have found out the facts before they spread the word like 
wildfire. I mean they should have taken accountability and made 
sure the stories were accurate before they ran with it.
    Mr. Issa. Do you think there was a conspiracy to create 
this for some reason at a level above the military and the 
media?
    Ms. Lynch. No.
    Mr. Issa. Do you have any evidence?
    Ms. Lynch. No, I don't.
    Mr. Issa. OK.
    Ms. Lynch. I don't.
    Mr. Issa. Mr. Tillman or Mrs. Tillman, do you think that 
there was a conspiracy?
    I heard some of the e-mails that were sort of the opposite. 
For that reason, I am asking. Do you think that there was a 
conspiracy or involvement by people politically connected, in 
other words, elected or appointed in political roles, that 
fostered the untrue statements about your brother or your son?
    Mr. Kevin Tillman. Yes, sir.
    Mr. Issa. Who are they and what is your evidence?
    Mr. Kevin Tillman. I don't know, sir, who they are. I just 
know the evidence is leading to a point which is why we came to 
your committee, sir.
    Mr. Issa. What evidence is leading to that point?
    Mr. Kevin Tillman. Part of the evidence is the P4 message 
sent by the head spoke of all the Special Forces. It is not a 
sit rep. It is a warning to these people. This information, 
this is something that is very critically sensitive, and it is, 
in my opinion, very disingenuous to think that they did not 
know especially based on what was going on at that time.
    It is a bit speculative right now, and that is why we are 
here. But the whole thing, as a whole if you look at its parts 
and put it together, it is absolutely absurd. This whole thing 
is unbelievable from this manufactured story to what really 
happened. There is just a disconnect.
    And to think that the generals would sua sponte this on 
their own, I don't think that is a very reasonable answer.
    And based off of the e-mail traffic, based on how these, a 
lot of these wars are perception-based. There is a lot of 
information. There is a lot of stuff that is controlled. I 
think it is imperative that the committee take a look and see 
if that is the case.
    I, personally, am pretty confident that they did have 
something to do with this because they are the ones that 
ultimately benefited from that story.
    Chairman Waxman. Thank you, Mr. Issa.
    Mr. Clay.
    Mr. Clay. Thank you, Mr. Chairman. I want to thank Ranking 
Member Davis, both of you all, for calling this hearing.
    I want to thank Private Lynch for being here today. Your 
courage and dedication to duty both while under enemy fire and 
then as a wounded POW are heroic, and your commitment to making 
certain that the truth about what happened to you and your unit 
finally emerged is equally heroic.
    Mr. and Mrs. Tillman, first as a father, I want to express 
my sincere condolences to you on the loss of your brave son, 
Patrick. I want to commend you for having the courage to pursue 
the truth about your son's death while bearing the terrible 
burden of losing a child.
    We know now that your painful loss was compounded by having 
had to confront a pattern of deception, misleading information 
and, in some instances, deliberate misinformation. 
Unfortunately, that pattern of misinformation and deception is 
not limited to just your son's case.
    So, yes, Mr. Tillman, there is a pattern of deception and 
misinformation that emanates from the top, from the White House 
on down and through the departments responsible for this war. 
So you are not too far from the truth, sir.
    Back in my district in St. Louis, I had a brave young 
constituent by the name of Private Levena Johnson and sadly in 
July 2005, at the age of 19, she became the first female 
soldier from Missouri to be killed in Iraq.
    Just like Corporal Tillman, Private Johnson was an 
exceptional young American. She was an honors student, a gifted 
musician and very active in her church and community. Just like 
Corporal Tillman, after 9/11, she was inspired to join the Army 
to help protect her country.
    Private Johnson came from a proud military tradition. Her 
father, Dr. Johnson, is an Army veteran and worked for the 
Department of Defense for 25 years. Her uncle served in Korea. 
Her grandfather served in World War II for almost 2 years.
    Dr. and Mrs. Johnson have been trying to get to the truth 
about what happened to their daughter, and my office has tried 
to assist them in that effort. Unfortunately, they have been 
met by a wall of disrespect, evasion and failure and a failure 
to provide them with the answers that the parents of any fallen 
soldier deserve.
    I am thankful that this committee is taking to get them the 
information they have questioned.
    Private Levena Johnson gave her life for her country, and 
her country has a responsibility to tell her family the whole 
truth about how she died.
    Now, Mrs. Tillman, I want to turn now to Pat's Silver Star 
award. The committee has a copy of the original citation that 
supported the Silver Star award. The certificate says that Pat 
Tillman put himself in the line of devastating enemy fire. It 
also says that Corporal Tillman was mortally wounded while 
under fire that resulted in the platoon's safe passage.
    Mrs. Tillman, there is nothing in here at all about 
friendly fire, is there?
    Mrs. Mary Tillman. No. No, there is not, sir. They are very 
careful to stay away from that.
    Mr. Clay. So anyone who reads this, including you, would 
believe Pat was killed in a firefight with enemy forces, isn't 
that right?
    Mrs. Mary Tillman. Yes, sir.
    Mr. Clay. Lieutenant Colonel Bailey has stated he was the 
one who recommended posthumously awarding a Silver Star to Pat 
Tillman, claiming that his actions prior to his death by 
friendly fire merited the award, but the final version of this 
award focused on the supposed battle with enemy firefighters at 
the time of death. Do you have any idea why Colonel Bailey or 
the other drafters of the award failed to correct this key 
fact?
    Mrs. Mary Tillman. I can speculate, and I do. But I think 
because the situation out there was so horrific, and I want to 
say that, Kevin indicates that he believes that the Rangers are 
trained, for the most part, quite well. And so, we are not 
attacking the training, and these soldiers themselves, in a 
different situation, may have performed quite well.
    But at this particular moment, they got excited, and they 
were not afraid. When they were asked about this particular 
engagement, not once did they say they were afraid. Not once 
did they say they were being fired upon. They said they were 
excited or one said I wanted to be in a firefight.
    General Jones asked, did you PID your target?
    No. I wanted to be in a firefight.
    When they asked, did you see waving hands?
    Yes, we saw waving hands.
    What did it look like, General Jones asked.
    It looked like they were trying to say, hey, it is us.
    And yet, they fired at them.
    Chairman Waxman. Thank you very much, Mr. Clay.
    Mr. Clay. Thank you.
    Chairman Waxman. Mr. Mica.
    Mr. Mica. Well, thank you.
    Again, I want to join my colleagues in extending my deepest 
sympathy to the Tillman family on your loss.
    I didn't get here for your opening comments, but I have 
read your testimony. It does sound like you present some facts 
that need further review relating to the questions about the 
mission that we should help resolve, and that is our 
responsibility. Then I think there are questions too that have 
been raised about how this story was handled.
    But with your son and your brother, you have an American 
hero. He was a hero before he joined the military and always 
will be, whether he died by friendly fire or by hostile action.
    I don't know if I could ever be satisfied if it was my son. 
I think we have a responsibility to pursue what you have been 
told.
    I must tell you as a Member of Congress, sometimes this is 
part of the process we go through too. I learned. I have had 
about 19 that I have lost, since I have been in Congress, in 
Afghanistan, in Iraq, in Europe, in different things. It is the 
hardest thing I have to go through personally.
    Sometimes I am very irritated. I read about it first in the 
press. The military doesn't have a good system of notifying us. 
They notify sometimes the next of kin first, and sometimes that 
doesn't work out well because of the circumstance. 
Unfortunately, we have gone through that over 2,700 times with 
death, combat casualties. What is it, 600 now, with accidents 
with the military. So you must know that about the process.
    I have a kid that his name is Vacarro, and I was told he 
died trying to save--he was a medic, trying to save others. 
When I heard that, I said, oh, my God, he should be awarded a 
Silver Star. But the funeral has been a couple months ago, and 
it has taken until just recently to see that he would get that 
because of the investigation.
    Of course, you have high profile, Ms. Lynch. You are very 
high profile, like it or not. You were unique among the 
captives and represent a very unique situation.
    Maybe the military did try to make more out of the heroes 
that they believe were heroes.
    Some of the information I have on Ms Lynch, the story that 
she was fighting to her death. This was April 3rd. I know you 
weren't interviewed for that, were you?
    Ms. Lynch. No.
    Mr. Mica. One of the authors, Loeb, says the Post based on 
this story on battlefield intelligence reports that Loeb says 
are always wrong in some respect. Loeb dismissed accusations 
that the military used his paper as an organ for propaganda. 
``I don't think we were spun at all,'' he says. ``I don't think 
the Pentagon ever set to make Jessica Lynch a poster child for 
battle heroism.''
    So it does happen. I just look at the things that have 
happened in the last week. Governor Corsine, I read in the 
media. I thought some kid cut him off on the turnpike, and he 
ended up in critical condition, almost dying. It turns out he 
was going 91 miles an hour on the turnpike, further revealed. 
Let alone explaining something that occurred halfway around the 
world is very difficult under war circumstances.
    Last week, with the unfortunate Virginia Tech incident, 
again, the way the media handled it, I thought there were two 
shooters for a long time, and then we were led to believe that 
it was the mistakes of the administration and others. Then we 
saw the video tape of a mentally deranged individual and saw 
the motivation. So it is very difficult.
    What I don't want you two to become the poster children for 
those who don't think our military does a good job. They make 
mistakes, and they have made mistakes probably in your 
instances, but there are hundreds of thousands of heroes. A lot 
of them aren't with us.
    Thank you, Jessica Lynch, for recognizing the others and 
being honest. You were honest, and you represent the best of 
the best. We thank you.
    I yield back.
    Chairman Waxman. Thank you, Mr. Mica.
    Ms. Watson.
    Ms. Watson. I want to thank the Chair for holding this 
hearing. I always see this committee as the seekers of truth, 
so thank you for giving us the opportunity to hear from those 
who are actually involved.
    I want to thank the Tillman family for their tenacity and 
not stopping until you get the actual truth so the story will 
be complete and you will have some closure. We see your son and 
your brother and your husband and your loved one as a real hero 
because he went to fight for his country, and he died in that 
fight. The peace of mind comes when you know all the 
circumstances, not a story that has been put together for 
political purposes.
    So thank you for your presence here. Thank you for your 
courage and your tenacity. We need more Americans like you.
    And, Jessica Lynch, you indeed are our hero. The fantasy 
surrounding your injuries and your hospitalization was reported 
to the American people and the world, making you a Rambo-like 
hero. You know the truth regardless of the condition you were 
in.
    I was told the truth by Shoshanna Johnson who was the first 
woman who happened to be an African American soldier who was 
imprisoned. We brought her to Los Angeles because she had 
relatives there, and she told her story. She told us how she 
was caring for you when you had trouble with the water and the 
food. She told us how your weight went down, and she told us 
about your energy level that would not allow you to go out and 
shoot until the last bullet.
    We knew that story, but what I heard through the press was 
something completely different.
    And so, we see you too as a fighter for right, a fighter 
for the country. It is the circumstances that we think were 
politicized, and this war being politicized is unacceptable to 
so many of us.
    So I want to thank you for your courage to come, your 
honesty, your sincerity, and I want to thank you for what you 
did for your country.
    Let me ask you this question. Did you come here for 
political reasons?
    Ms. Lynch. No, I did not.
    Ms. Watson. Did you join the service for political reasons?
    Ms. Lynch. No, I did not.
    Ms. Watson. All right, that is from you to the world.
    Now did you get out of the vehicle during the time that it 
was the ambush and several of your colleagues were killed?
    Ms. Lynch. No. We were traveling at the time, and then we 
were hit by an RPG, and sometime between that point, I was 
unconscious and then taken to the hospital.
    Ms. Watson. But you were in the vehicle.
    Ms. Lynch. Yes, inside the vehicle.
    Ms. Watson. You never got a chance to fire off?
    Ms. Lynch. No, I did not.
    Ms. Watson. All right. Now that is the story that Shoshanna 
Johnson told us in front of the press.
    Ms. Lynch. Yes.
    Ms. Watson. That is not the story we heard through the 
press afterwards.
    Dr. Bolles, you have said there were prick marks, but you 
diagnosed to say they were not bullet wounds, is that correct?
    Dr. Bolles. That is correct.
    Ms. Watson. All right. I just want to establish that 
because the story went out. Someone had to become the heroine 
or the hero of this war, and you happened, Jessica, to be that 
story.
    I am so pleased and proud that all of you are here to tell 
the truth to the world.
    What we want to say here is that we wish you no harm. We 
want to express our sincere gratitude to all of you and to your 
relatives that would go out in defense of this country. But 
when stories are fabricated, that does a disservice to you. It 
does a disservice to our fighting force.
    I want to say to all of you, thank you for the courage 
because there is going to be counterattack--I am just as sure 
as I am sitting here--to disprove what you are saying, but we 
heard you. You are the ones that went through it, and we will 
document that.
    So thank you so much for coming.
    Thank you.
    Chairman Waxman. Thank you, Ms. Watson.
    Mr. Shays is next, but he wants to hold back on his 
comments, so I am going to recognize Mr. Hayes.
    Mr. Hayes. Thank you, Mr. Chairman, and thank you for 
letting me come.
    The witnesses may or may not know, I am not a member of the 
committee, but I represent Fort Bragg in my district and for 
years have known and grown up with a number of the people that 
are involved.
    First, again, let me, as others have, extend my most 
sincere condolences to the Tillman family. Words can't express 
our sympathy for you and what has happened.
    I appreciate your service, Kevin, in the military, and 
Jessica, thank you very much for that.
    I simply want to say, Mr. Chairman, that in all this, the 
men at Fort Bragg, some of whom are serving elsewhere right 
now, are not perfect. But, by the same token, I have known them 
for over 9 years now to be men of honesty, integrity, 
intelligence and commitment to the country.
    As we move forward, anything that we can do to help you, 
the families, bring appropriate, proper closure which we all 
recognize is not possible, we certainly want to be a part of 
that. By the same token, we want to be completely open and 
above board, forthcoming and straightforward about other people 
are directly and indirectly involved and make sure that we do 
what is right for everyone concerned.
    My neighbor down the hall, Ms. Watson, talked about this 
being political. Well, Washington is political. It doesn't 
matter what the year or whom the party in the majority is, 
there is a certain amount of politics, and it is up to us.
    Mr. Chairman, what I think and hope you and Mr. Davis are 
doing--Mr. Tom Davis and Danny Davis as well--is to make sure 
that whatever political implications go with any incident, the 
outcome is such that in the future, mistakes are avoided, 
families are protected and we come away doing the right thing 
regardless of what party that we are in.
    Unfortunately, I have extensively read the many reports, 
not the least of which is the 84-page one. As you look at this, 
we don't have the luxury of a safe crime scene where we can go 
back and carefully evaluate, and that has to be a part of the 
overall picture that we are looking at here.
    By the same token, I was at Beaufort Marine Corps Air 
Station on Saturday when the tragic, tragic loss of a Blue 
Angel occurred. Our hearts and prayers go out to that family as 
well. But it struck me as we were there on the air station, an 
eyewitness so to speak, listening to the news reports of the 
``eyewitnesses'' in the excitement and the fear and also the 
confusion that resulted, there was some lacking of accuracy. I 
think, again, that needs to be a part of this.
    Mike Honda, you and I have talked about this. Thank you for 
stepping up and representing this family so well, and it is 
very appropriate.
    Mr. Chairman, again, thank you for letting me speak and 
again to the Tillmans and Ms. Lynch, thank you very much for 
your service. Anything we can do for you, I can assure across 
any political border, we are anxious to do that.
    Chairman Waxman. Thank you very much, Mr. Hayes.
    Mr. Yarmuth.
    Mr. Yarmuth. Thank you, Mr. Chairman.
    I want to thank the members of the panel for their 
testimony. To the Tillmans and Ms. Lynch, on behalf of the 
people of Louisville, KY, whom I represent, I want to thank you 
for your service and your courage and your sacrifice.
    Dr. Bolles, I would like to turn to you for a minute. You 
were Jessica Lynch's surgeon in Germany as we heard earlier. 
You were a private contractor there, is that correct? You 
weren't a member of the military?
    Dr. Bolles. That is correct.
    Mr. Yarmuth. After the stories came out Ms. Lynch that said 
that she had been shot, you remained silent. You played a 
critical role in this entire episode, and yet the American 
people never heard from you. Why did you not speak up at the 
time that this all occurred?
    Dr. Bolles. Well, I think every physician has an ethical 
responsibility not to talk about their patients publicly or 
even privately for the most part. That goes without saying.
    Mr. Yarmuth. Were you under any constraints, legal or 
otherwise, by virtue of your position as a private contractor 
in discussing these incidents?
    Dr. Bolles. No.
    Mr. Yarmuth. No, not at all.
    Ms. Lynch, were you coached by anybody at any time as to 
what you might or should say concerning your situation, your 
story?
    Ms. Lynch. Well, when all the stories were being created, I 
was kind of kept away from watching the news and stuff and 
hearing all the reports. So I really didn't even know what was 
going on until a while later. But because I was still in the 
Army, I wasn't allowed to talk about what happened.
    Mr. Yarmuth. That is a standard rule, that you aren't 
allowed to talk about it, but you did ultimately talk to 
network television. That was after.
    Ms. Lynch. Once I was out of the military, I was allowed to 
speak about what happened.
    Mr. Yarmuth. When you entered the military, let me put it 
another way. Has this entire incident made you question the 
handling of public information by the military?
    Do you think that the country was well served throughout 
this entire episode?
    Ms. Lynch. I do, but I think they could have handled 
situations a lot better and made sure that the truth was more 
accurate.
    Mr. Yarmuth. Going back to you, Dr. Bolles. You said you 
were under no constraints. Did you have to sign any kind of 
non-disclosure agreement?
    Dr. Bolles. Yes, I did.
    Mr. Yarmuth. Was that something you signed, a blanket non-
disclosure agreement regarding all patients or were you asked 
to sign this specifically for the Lynch case?
    Dr. Bolles. When you asked me the question before, my mind 
was thinking about right afterwards when the press did contact 
me. Before she left, the day before or the day of, I was asked 
to sign something to say that this would not be discussed also.
    Mr. Yarmuth. You had never been asked to sign anything like 
that involving any other patient of yours?
    Dr. Bolles. No, sir.
    Mr. Yarmuth. You said that there was another doctor there 
who came to a different conclusion as to whether Ms. Lynch had 
been shot. Do you know if he was asked to sign a non-disclosure 
agreement?
    Was he a member of the military?
    Dr. Bolles. He was a member of the military.
    Mr. Yarmuth. So he was bound by the same constraints that 
Ms. Lynch was.
    Dr. Bolles. I would assume so.
    Mr. Yarmuth. Did you think it was peculiar that you were 
asked to sign a non-disclosure agreement for one patient?
    Dr. Bolles. At the time, no. I am not sure I do now. I kind 
of assumed they were asking people other than myself and that 
it was a standard procedure.
    Mr. Yarmuth. Looking back at it now, are you suspicious of 
the fact that they did that?
    What do you think was behind their action there?
    Dr. Bolles. I really don't think I have an opinion on that, 
sir. It may have been standard procedure for a highly visible 
situation such as Private Lynch was. I don't know.
    Mr. Yarmuth. OK.
    Thank you very much, Mr. Chairman. I yield back.
    Chairman Waxman. Thank you.
    Mr. Shays.
    Mr. Shays. Thank you. Thank you for having this hearing, 
Mr. Chairman. I thank our witnesses for being here.
    In a hearing like this, you don't even know where to begin, 
particularly in 5 minutes.
    Ms. Lynch, your statement says it all. You are on record. 
You have come before Congress. It was done in a very 
appropriate way, concise, to the point. Thank you for your 
service.
    I wrestle with this issue. I wrestle with the fact that 
there were anonymous sources saying you did things you didn't 
do. There was huge attention on you.
    I wonder what I would do if I was the Government, saying, 
you know what, she really didn't do this. She didn't really do 
that and not wanting to show any disrespect to you. So, in some 
ways, I feel like you are the one who needed to set it 
straight.
    I think some people just wanted to show respect to you and 
didn't want to cause you any more agony than you went through, 
but obviously you have gone through so much. But, in the end, 
the record needs to be set straight, and no one should 
knowingly distort the record.
    I believe the parents, the spouses, the next of kin, that a 
spouse has an absolute right to know the truth, absolute right. 
Children have an absolute right to know what happened to their 
dad. Anyone who gives out false information should lose their 
job at the least and something worse if they really were part 
of a huge conspiracy.
    So thank you, Ms. Lynch, for being here and your testimony.
    Mrs. Tillman, you and your husband are remarkable parents. 
You have three sons, two sons who have given up a lot 
materially to serve and risk their lives for their country. I 
mean they did this because of the way you raised them. You are, 
I think, being very consistent with the way you raised them. 
You want the truth.
    I don't know. I am going to call you Kevin just because 
there are so many Tillmans here but, Kevin, to have served in 
the same unit with your brother and to have been made aware of 
what happened so quickly, this has to be devastating.
    I have three older brothers, no sisters. I can't imagine 
losing a brother.
    To have served with your brother and to know that he lost 
his life and then to know there was a real screw-up. What is 
hard for me to imagine is how anyone, knowing you were there, 
thought they could distort the truth. I mean for the life of 
me, I don't know that. I can't even begin to think how they 
thought they could get away with it.
    I see your circumstance with Pat different than Ms. Lynch 
because here it does seem to be information directly given out, 
publicly given out, totally false.
    Mr. Kucinich and others--I chaired the National Security 
Subcommittee and now I am its ranking member--we asked that 
this investigation happened, but you are not happy with the 
investigation done by the Inspector General.
    I went out for a little bit. I would like one or the other 
or both of you to just tell me again why you are not happy or 
take issue with this investigation.
    Mrs. Mary Tillman. The Inspector Generals' investigation 
indicates that.
    Mr. Shays. If I could ask, I have trouble hearing you, if 
you can move the mic up. You are not as loud as you think you 
are up here.
    Mrs. Mary Tillman. Yes, I am, but I am being very careful.
    Mr. Shays. Yes, thank you.
    Mrs. Mary Tillman. Well, first of all, I just want to clear 
something up. This family has great respect for the military. 
My dad served. My uncle served. I just want to make that clear.
    The most comforting sight right after Pat died was the 
sight of General Kensinger which is very sad to me because I 
don't know what his role is in the cover-up. He was very kind. 
He was very impressive in his uniform, and I felt very proud 
that he was there.
    In other words, we were made to feel rather foolish, I 
think. I mean there is an element of the betrayal. You feel 
rather foolish. Well, how did I not pick up on this?
    And all of the officers we were in touch prior to 
uncovering, sort of this deceit, we had respect for. I mean, I 
thought General Jones was a very gracious man, and I even gave 
him a picture of Pat, because he knew Pat, and then I felt like 
he was betraying us in the end although he did do us a great 
service because he gave us a lot of information. But his 
conclusions were not valid. I mean based on the evidence, how 
could he say there was nothing wrong, that nothing nefarious 
had happened?
    So I just want to make it very clear that this family does 
have respect for the military. We had great trust in the 
officers that came to us, and I know there are marvelous people 
in the military to this day.
    But I work for an organization too. I know there are good 
and bad people, and it is the people that are doing the wrong 
that need to be uncovered.
    Mr. Shays. I know my light went on, but I would just love 
to have you highlight maybe one or two biggest flaws with this 
report.
    Mrs. Mary Tillman. OK, I understand.
    Mr. Kevin Tillman. I will highlight one for you, sir. If 
you could turn to page 53, it talks about, and this is redacted 
so you have to bear with me. It talks about the narrative, the 
witness statements for the Silver Star, and the two Silver Star 
witnesses.
    One is here, which you guys had to fight to get. That is 
Bryan O'Neal, that the military fought tooth and nail, as you 
know, to keep him from testifying.
    But the narrative on that top right-hand side, read it. 
They are flat out saying I didn't write this. I didn't write 
this. Who wrote this thing? It wasn't me. I didn't say this.
    Is that addressed in the conclusion? No.
    I mean that is fraud, correct? To falsify a witness 
statement in a Silver Star award, fabricating it with these 
kids' names on it, that is an example of something that it is 
sitting right here.
    Why isn't it addressed in the conclusion? How come no one 
is held accountable for this?
    The whole thing is riddled with nonsense, sir.
    Mr. Shays. If I could summarize, there are indications here 
that the Inspector General was not as diligent, did not pursue 
obvious questions, and so you have a lot of unanswered issues 
here because of this report.
    Mrs. Mary Tillman. Well, they accepted the CID 
investigation. I mean the IG, they came to conclusions about 
certain generals that did some things they shouldn't have done. 
I believe these generals were not--I think these generals were 
under orders, personally, by someone higher. I don't think that 
these generals acted on their own.
    But I mean, yes, the IG did say that there were four 
generals that are culpable and there are five other officers 
that are culpable. I understand that.
    However, they also said that the CID investigation was 
valid. They gave it. They deemed it OK, and the CID 
investigation was a travesty in my eyes. I think it was 
ridiculous. There were absolute indications of ROE violations 
riddled throughout every single report that was done.
    They didn't, they didn't try to find out really who the 
name of this Afghan militia soldier was. For 3 years, no one 
has known his name, and then we are told his name is Thani, 
which I think is kind of ridiculous being it is a tribal 
country. They usually have more than one name, and I don't 
think that is his real name.
    I wanted to know who actually commanded the AMF soldiers. I 
asked the IG agent specifically to find that out. He was 
communicating with CID. He said he would make sure they were 
aware of that.
    When I asked the investigator, who commanded the AMF 
soldiers. Oh, we didn't look into that.
    When I asked them, what was the conclusion with the 
ballistics testing, with the bullets that were taken from Pat's 
head? Oh, I didn't look into that. We never got any report.
    I mean, in every way, they dodged. They are dodging us, and 
the IG condoned that even though they make the public believe 
they did such a grand job because they pointed the finger at 
four generals and five other officers. That is a smokescreen. 
These officers are scapegoats.
    Mr. Shays. Thank you.
    Mrs. Mary Tillman. And McCrystal's memo coming out the way 
it did is a pure indication that they are feeling like 
scapegoats.
    Mr. Shays. Thank you.
    Chairman Waxman. Thank you, Mr. Shays.
    Mr. Braley.
    Mr. Braley. Thank you, Mr. Chairman.
    Ms. Lynch, Mr. Tillman, I want to thank you for your 
eloquent and compelling testimony.
    Mr. Tillman, I want to thank you for using the word, 
fratricide, because for any family that has gone through what 
your family has, there is nothing friendly about friendly fire. 
With your permission, I would like to address my initial 
remarks to your parents.
    When I heard about your son's death, the real causes for 
his death, it took me back to when I was a 13-year-old growing 
up in Iowa. I had a cousin who was serving in a Marine 
artillery fire base in Vietnam, and a story hit the Des Moines 
Register that captured the attention of everyone in my State.
    It was about a young man named Michael Mullen from La Porte 
City, IA, who had gone to high school at Don Boscoe, gone off 
and gotten his college degree and was a graduate student when 
he was drafted into the Army and went and served his country 
honorably.
    I want to ask you if this story sounds familiar. During the 
predawn hours of February 18, 1970, on a jungle hilltop near 
the village of Chu Lai, South Vietnam, an outgoing shell from a 
U.S. Army howitzer accidentally struck a treetop and exploded 
above the men of Charlie Company First Battalion, Americal 
Division. Six were injured, two were killed. One of them was 
Michael Mullen, 25, the fifth generation of his family to farm 
the same fertile Iowa acreage.
    Michael was pierced by a small crescent of steel that tore 
a hole in his heart. He was sleeping and died instantly. The 
Army listed their son as a non-battle casualty, a category that 
they were to learn was used rather loosely to keep down the 
weekly figure of war dead.
    An anguished war protest letter from Peg Mullen, Michael's 
mother, to President Nixon brought back a note from a White 
House clerk, assuring that the President was truly sorry that 
her son had died and attached to the note were copies of 
President Nixon's Vietnamization speeches. Another letter from 
the Adjutant General's Office informed the Mullens that the 
non-battle casualty had been posthumously awarded the Bronze 
Star and the Good Conduct Medal.
    However, they also received a voucher they were asked to 
sign to receive the pay due their son, Michael, at the time of 
his death, and they refused to sign, demanding a full 
accounting from the government of the circumstances of how he 
died. When they finally got that full accounting, it came with 
a deduction for advanced leave time that their son no longer 
had a position to make up.
    Peg Mullen turned this into a personal crusade, taking the 
money that they received from their son's death benefit to take 
out full page ads in the Des Moines Register, consisting of 714 
crosses representing Iowa's Vietnam War dead. One of the 
results from that action was that they had their family phone 
tapped.
    As I heard the story of what your family has gone through 
in order to get a full accounting from the government that your 
son served with honor, I was reminded of how we tell ourselves 
over and over again, and yet we seem to go through this every 
time we are faced with a crisis like we face right now.
    Mrs. Mary Tillman. I would like to say I think it is really 
important because before someone says anything to us, I want to 
say it first because we have been asked over and over again, 
well, what can we do for your family? How can we appease you?
    And it makes me sick. It is not about our family. Our 
family will never be satisfied. We will never have Pat back.
    But what is so outrageous is this isn't about Pat. This is 
about what they did to Pat and what they did to the Nation. 
There is evidence, an accumulation of what is about 12 binders 
on Pat's death. I condensed it to one or two. This is evidence 
that something really awful happened. It is your job to find 
out what happened to him. We have an institution in place to 
find out what happened to him, and that is really important, 
and we are coming to you. Pat died for this country, and he 
believed it was a great country that had a system that worked. 
It is not perfect. No one has ever said that. But there is a 
system in place to allow for it to work, and your job is to 
find out what happened to Pat. It is to find out what happened 
to Patrick McCaffrey, to what happened to Kenneth Ballard, to 
all the other soldiers.
    By making up these false stories is exactly what Jessica 
said. You are diminishing their true heroism. It may not be 
pretty. It may not be like out of a John Wayne movie, but that 
is not what war is all about. It is ugly. It is bloody. It is 
painful. And to write these glorious tales is really a 
disservice to the Nation, and the Nation needs to realize this 
is an ugly war. Everyone should be part of it. Everyone should 
understand what is going on. And we shouldn't be allowed to 
have smokescreens thrown in our face.
    Mr. Braley. Thank you.
    One of the articles that I have read after the Pentagon 
report was released noted that the report did not attempt to 
explain why the military command stuck to its feel good story 
of combat heroism at the time of the Abu Ghraib scandal, which 
you referenced in your testimony, Mr. Tillman.
    Can you, either one of you, talk about why or what 
explanations you have received as to why that explanation has 
never been provided?
    Mr. Kevin Tillman. I haven't received an explanation. I 
don't know if they have a good explanation. I think they are 
just, whatever reason. I don't know. Hopefully, you guys can 
find that out. I don't know why they stick to the same story, 
but they are still sticking it.
    Mrs. Mary Tillman. General Jones, when he interviewed 
General McCrystal for his investigation, he asked, and this is 
the document that General Jones provided us. He said, once you 
became aware that this was possible fratricide, was there a 
conscious decision made not to tell the family of the 
possibility? If so, why?
    General McCrystal answers, there was a conscious decision 
on who we told about the potential because we did not know all 
the facts. I did tell the senior leadership--and there is a 
redaction, we all know now who he is talking about--about the 
possibility prior to the memorial ceremony because I felt they 
needed to know that before the ceremony. I believe that we did 
not tell the family of the possibility because we did not want 
to give them some half-baked finding.
    But the irony is that is exactly what they did. They made 
up a story. They presented it to an honorable military 
individual who thought he was giving, that had given the true 
facts, and he was mortified that he wasn't. The Army didn't 
even present it themselves to be held accountable for the lie. 
They handed it over to someone else.
    I mean there is no explanation.
    And this notion that we wanted to investigate beforehand is 
absurd because General Jones also provided documentation that 
even before this incident happened, you are supposed to tell 
the family right away if you suspect fratricide, period.
    It is not nebulous as Colonel Nixon said. It is not 
nebulous at all. You simply tell the family you suspect it. 
Then you can investigate. Then you can give the family your 
conclusions.
    So the idea that they were trying to protect us by not 
telling us until the investigation took place is ridiculous.
    Mr. Braley. Thank you.
    Chairman Waxman. Thank you very much.
    Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair.
    As so many of us have stated, today's hearing is to honor 
the special men and women of our armed services by coming to 
the truth, and I thank the families for being here today. I 
thank you, Ms. Lynch, for being here today.
    There are press reports galore, stacks of them. People were 
looking for a hero. When you are in boot camp and before you 
get to boot camp, you raise up your hand if you are going to be 
in the military and you take an oath, and you are a hero at 
that moment.
    I remember well the situation in Iowa, being from the 
neighboring State of Minnesota, and the courage and the 
determination of that family. As Congressman Braley pointed out 
again, here we are doing it again today.
    I am going to refer to the Inspector General's report, and 
I can see why you are less than satisfied with it.
    Page two, the Inspector General says: We conclude that, 
despite shortcomings, the investigation is established on basic 
facts--despite shortcomings.
    On page three: We determined both investigators were 
deficient, both investigations, the early investigations were 
deficient primarily because the investigating officer failed to 
visit the scene to gather the evidence, failed to review the 
witnesses.
    But, yet, I don't see where there was any action taken. 
Maybe there is another report beyond this that can be supplied 
to me.
    On page four, the Inspector General says: We determined 
that the third investigation was also deficient primarily 
because the investigating officers failed to interview all the 
relevant witnesses and did not access accountability for the 
chain of command's failure with requirements including failure 
to report and investigate friendly fire.
    On page five, the Inspector General goes on to say: We 
found no reasonable explanation for this failure to comply with 
regulations.
    It goes on and on and on, and yet I don't feel that I, as a 
Member of Congress, have enough information to find out how far 
up the chain of command this went and how people have been held 
accountable.
    Someone said today, you are here to set the story straight. 
I don't believe you should be here to set the story straight.
    Mrs. Mary Tillman. Thank you. I agree with you.
    Ms. McCollum. I believe our military should have set the 
story straight for the Tillman family, for the Lynch family and 
for all the families I am currently working with on casework to 
make sure that everything is reported right.
    This affects every single family that is serving in our 
country today, and it will affect families servicing tomorrow 
if we don't get to the truth.
    In this country, our constitution is based on the fact that 
people should have an open government and that all people are 
entitled to the pursuit of happiness.
    Now this outcome will not make your family happy and, Ms. 
Lynch, this outcome will not heal your body whole again to 
where it was prior to the injury. But can you tell me in your 
words how not being told the truth and having to be here again, 
asking for the truth to be fully revealed and everyone to be 
held accountable, how that makes you feel betrayed?
    You used the word, and I think it is very powerful, Mrs. 
Tillman. You had been betrayed.
    Mrs. Mary Tillman. Well, yes. I mean we have all been 
betrayed. It isn't just our family. Every time they betray a 
soldier, they betray all of us.
    Pat had high ideals for the country. He did, and he thought 
it was imperfect. He certainly didn't join for political 
reasons. He thought the country was in need. It didn't matter 
who was in office. It didn't matter which party he voted for. 
That is beside the point. The country was in need.
    We had officers that we trusted. We had high regard for 
them. My ex-husband, Pat's dad and Kevin and Richard's dad, we 
both kind of turned them over although they were grown men and 
perfectly capable of that. But in your heart, they are your 
kids and you turn them over, and we trusted.
    We knew they could die. Certainly, we knew they could die 
or they could come back wounded or they could be harmed to the 
extent that Jessica was harmed. But we never thought that they 
would use him the way they did.
    And I say they. I don't know who ``they'' is. So please 
forgive me if I am trying to put everybody in the same 
category. But they definitely used him.
    And what is so weird is I remember, we all remember 
Jessica's story, and when the truth came out, I am thinking in 
my head, well, they learned their lesson this time. This girl, 
she really showed courage, and she told the truth, and they 
will be smarter next time.
    Well, a year later, they weren't smarter.
    And so, it is a betrayal, but it is not just a betrayal to 
us, and that is why we are here. If it was only a betrayal to 
us, we would sue or something. This is a very big issue, and 
that is why we are in front of Congress because Congress is 
supposed to take care of their citizens.
    Chairman Waxman. Thank you very much. That is why we are 
holding this hearing.
    Mrs. Mary Tillman. Yes.
    Chairman Waxman. Thank you.
    Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman. I 
want to thank you for holding this hearing.
    To the Tillmans, I want to add my thanks to you for your 
fortitude, courage and great personal sacrifices that you have 
made not only on behalf of your family but on behalf of all of 
us who believe in truth, all of us who seek justice and all of 
us who believe in valor. And so, we all appreciate you and what 
you have been doing.
    Private Lynch, let me add thanks to you for your bravery in 
battle but just as much for your courage to come forth to share 
with the American people, something that perhaps you wouldn't 
have had to do unless there was something burning inside of 
you, saying that truth is so important that the people must 
know and that the people must understand. So thank you so very 
much.
    Let me ask the Tillmans. On May 3, 2004, a large memorial 
service was held for Corporal Tillman in San Jose, CA, which 
was carried on national television. I would like to ask both of 
you about that memorial service.
    I am sure that Corporal Tillman's death was a severe blow 
to your entire family. This memorial was an opportunity to 
honor his service, to honor the fact that he gave his life for 
his country. I imagine that you both were dealing with very 
difficult feelings and that you were trying to get some sense 
of closure.
    At the time of the service, you still thought that Pat 
Tillman had been killed in a firefight with the enemy. Is that 
correct?
    Mrs. Mary Tillman. Yes, sir.
    Mr. Davis of Illinois. So you had begun to come to terms 
with that at the memorial.
    There were various Defense Department officials present, 
and they spoke about Corporal Tillman's bravery and his actions 
in fighting the enemy. Is that also correct?
    Mrs. Mary Tillman. Yes, sir.
    Mr. Davis of Illinois. Now I understand that General 
Kensinger was the highest ranking military officer who attended 
the service. Did you see General Kensinger at the memorial 
service?
    Mrs. Mary Tillman. Yes, I did.
    Mr. Davis of Illinois. Did you speak with him and, if so, 
what did he say?
    Mrs. Mary Tillman. I did speak with him. I don't remember 
what I said to him. I just remember feeling very comforted that 
he was there, and he was very kind and warm. I just felt a very 
close affiliation with the military somehow because I felt 
like, well, they understand what we are going through and they 
are here to, you know.
    I was glad to see him, and I don't remember what he said. I 
don't remember what Colonel Chin said.
    Mr. Davis of Illinois. But at this point, General Kensinger 
already knew that Pat's death was a friendly fire incident.
    Mrs. Mary Tillman. Yes.
    Mr. Davis of Illinois. The memorial service was on May 3rd, 
and General Kensinger had received the P4 memo on April 29th, 4 
days earlier, warning that this was a friendly fire incident. 
But he didn't tell you anything about this. He didn't correct 
what was said at the ceremony.
    We had wanted to ask the general about his actions at our 
hearing today, but he has refused to testify. Last week, his 
attorney sent a letter to the committee invoking his fifth 
amendment right against self-incrimination.
    Mr. Chairman, I ask that this letter be made a part of the 
record.
    Chairman Waxman. Without objection, that will be the order.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2898.020
    
    [GRAPHIC] [TIFF OMITTED] T2898.021
    
    Mr. Davis of Illinois. I will close by observing it appears 
that you were put through the wringer twice. First, you were 
hit with Pat's death which was devastating, and then as you 
were slowly coming to terms with that, you were hit again, this 
time with the revelation that military officials sitting next 
to you at Pat's memorial service knew that he was killed by his 
own platoon but kept you in the dark.
    It is hard to imagine our military and our government doing 
that to its citizens especially when they are mourning the life 
of their loved ones who have given to this country the most 
that one can give.
    Again, I thank you for your testimony, for your courage and 
for being here today.
    Mr. Chairman, I yield back the balance of my time.
    Chairman Waxman. Thank you very much, Mr. Davis.
    I am going to recognize myself before we call on those who 
have joined us, Mr. Mitchell and Mr. Honda.
    I can certainly see why you are outraged. You were told 
misinformation. The country was told misinformation.
    There have been five investigations, and there are still 
unanswered questions. There were three internal investigations 
by the military, then the Office of Inspector General and the 
CID split it up and did two investigations themselves, and 
there are questions that we still haven't answered.
    How high up did this go?
    People knew early on that the story that was being sent 
around the world was just not true. They didn't let you know 
for 4 or 5 weeks, but other people knew.
    Then the statements on the Silver Star award, the Inspector 
General said those statements were fabricated, and yet he 
didn't tell us who fabricated them.
    Mrs. Mary Tillman. Right.
    Chairman Waxman. We are going to ask him about that in a 
minute.
    Then I have read, and no one has mentioned this, statements 
from people in the military who are so condescending to you to 
say: You are lost in your grief. You can't deal with this whole 
thing. You cannot accept what happened.
    Mrs. Mary Tillman. Basically, I would like to address that 
because lieutenant, I believe he is a lieutenant general. I 
lose track. No, I am sorry. He is a colonel. He is still a 
colonel.
    Colonel Kauzlarich said, and I am appalled that he would 
make these comments. He is entitled to his opinion, of course, 
but he said that we were, we would never be satisfied because 
we are not Christians. Spirituality doesn't enter into this, I 
guess, in his mind. We are not Christians. So we can't put him 
to rest, and that is why we will never be satisfied, and we are 
just a pain in the ass, basically.
    Then he did an interview on ESPN where he basically 
reiterated this. I mean to a reporter who then put it on a Web 
site and in an actual. He also said that it must make us feel 
terrible that Pat is worm dirt.
    Chairman Waxman. Well, that is really horrible.
    I think nobody has studied this more than you. Nobody knows 
more about this than you. So we need to get the further 
questions that you feel have to be answered, and we have to 
insist that they be answered.
    Five investigations evidently isn't enough. They haven't 
gotten the answers that you need.
    Mrs. Mary Tillman. Well, I would like to address also 
General Abizaid because General Abizaid was sent the memo, the 
P4, that almost everyone says is a very crucial memo. That it 
is supposed to be read right away.
    And he claims he didn't receive it. He said he was in Iraq. 
Well, on the Pentagon Web site, there is an interview. He did a 
press conference on April 30th, and he was in Qatar. And in 
that press conference, he makes reference to the fact that he 
was in Afghanistan the day before, talking to Pat's platoon 
leader who was wounded in the same exchange that Pat was 
wounded in.
    Chairman Waxman. Let me interrupt you because I want to get 
to Ms. Lynch, and I only have a couple of minutes left.
    Mrs. Mary Tillman. Right.
    Chairman Waxman. But let me just say Shakespeare put it 
correctly when he said, oh, what a tangled web we weave when 
first we practice to deceive.
    Evidently, people were out there trying to deceive not just 
you but the American people.
    Ms. Lynch, your injuries, the result of your injuries, we 
were told in the Washington Post and other places were because 
you were a girl Rambo, and that just turned out to be not true. 
Yet, the statements were made by people in the military to the 
press. So they were trying to get a story out, and of course 
both stories are very self-serving when you think of those who 
are trying to support the wars in Afghanistan and Iraq.
    Then the military had an opportunity to rescue you, and you 
were held captive for 10 days. But there was a whole day before 
they rescued you when they were preparing not just to rescue 
you but to videotape the rescue. Were you aware of that or 
aware of it now?
    Ms. Lynch. Yes, I was aware. Well, not at the time, I 
wasn't aware that they were videotaping me, no.
    Chairman Waxman. No, certainly not then.
    Ms. Lynch. But after the fact, yes, I knew about it, and 
now, I kind of understand why they did it.
    Chairman Waxman. Well, maybe you understand it, but it just 
seems to me--I come from Hollywood. I expect show business in 
Hollywood, not from the military and not to support a story 
that was a fabrication.
    Our staff interviewed Jim Wilkinson, the Director of 
Strategic Communications at CENTCOM. He informed us of the 
plans of your rescue operation. He informed the press operation 
a full day before it happened.
    Then there is a Lieutenant Colonel John Robinson. He is 
someone who worked for Mr. Wilkinson. He explained to the 
Washington Post why the press office was so interested in 
getting video of your rescue, that they postponed your rescue 
to do this. He said: ``We knew it would be the hottest thing of 
the day. There was not an intent to talk it down or embellish 
it because we didn't need to. It was an awesome story''--the 
awesome story of your rescue.
    Well, this might have been an awesome story, but this was 
your life and you were the one feeling the pain. They were 
trying to stage a rescue to sustain their heroic story that 
they made up, and your story was heroic enough without that 
fabrication.
    I want to recognize Mr. Waxman. He is a representative of 
the Tillman family, and he asked me to hold this hearing. I 
know he has talked to you, Mrs. Tillman and Mr. Tillman, but I 
recognize him to pursue any questions he wants to.
    Mr. Honda. Thank you, Mr. Honda. I want to thank you as the 
Chair and Ranking Member Davis and the members of this 
committee for holding this hearing. It is a hearing that has 
been long awaited, but it was a hearing that was set aside 
until such time that all administrative procedures could be 
exhausted.
    I think the Tillmans have exercised a tremendous amount of 
restraint and patience. To the family, I want to thank you for 
that, and I also thank you for not giving up.
    I guess there is a phrase that says you bring truth to 
power. I think now you will give power to truth, and this is 
the pursuit that we are going after.
    To Ms. Lynch and to Dr. Bolles, thank you for being here 
also.
    There was an initial comment about you, Kevin, about being 
there. The situation was, as I understand it, that the platoon 
was set up in two serials. Serial one where your brother was 
in, and Serial 2 was where you were assigned. The firing took 
place, of which you probably heard but did not take part in.
    Could you share with us that which happened, step by step, 
through that day and then subsequent days until such time that 
you had become aware that your brother was killed by friendly 
fire?
    Mr. Kevin Tillman. Yes, sir. That is a long narrative, but 
I will speed it up.
    Mr. Honda. It may be long, but I think it will be helpful.
    Mr. Kevin Tillman. We had a broken down GMV, and we were 
stuck. We were stuck in Magara for about 6 hours, and I am not 
privy to any of the conversations with the PL or any of that 
stuff because I was on a turret gun. I was a Mark 19.
    The long and short of it, they told the PL the decision was 
made to split the platoon up. One go to Manah and the other 
take the broken down GMV up to the hardball road. So they took 
off. The first serial that Pat was in left about 10 minutes 
before we did, and then we followed suit.
    Well, someone made the decision not to go up that road 
because it was too difficult. Well, they traveled into--Serial 
1 traveled into a canyon. Serial 2 decided to follow right 
behind Serial 1 into that canyon, and I actually was the last 
vehicle enter into the canyon. I mean I didn't know what the 
plan was specifically, but you get a general feel.
    And the long and short of it, we ended up following I don't 
know how close, but I knew we were there. I was in the vehicle 
with the platoon sergeant in the rear of the element. So they 
went through. Pat's group went through and had no issues.
    We went through, and we, at some point inside the canyon, 
got hit. Well, as the serial exited the canyon, the first 
vehicle ended up engaging Pat, the AMF soldier, O'Neal, that 
whole serial on the top right side which was an entire squad in 
a village.
    By the time we pulled up, it was all said and done. So we 
pulled up, and I am just sitting down at the bottom. So after 
all that stuff happens, we ended up slowly working our way 
through.
    And I found out about 45 minutes later that Pat had died, 
and they didn't tell me how. They just told me, you know. I 
asked them where is Pat because I just didn't know where he 
was, and I didn't think about it at all. And then I just didn't 
hear him, and Pat is a very, you know. You always know where 
Till is, you know.
    And so, I asked one of my NCOs. I said, where is Pat, and 
he wouldn't answer. I asked him again, and he told me.
    And about 5 minutes after that, they picked Pat up in a 
helicopter and took him away. Then they picked me up about an 
hour and a half later and took me away. And from that point, I 
was with, well, I wasn't with Pat's body, but I was in Salerno, 
then Bagram and eventually I went back with Pat's body--well, I 
assume it was Pat's body--to Germany, then to Dover and then 
back to San Jose, CA.
    Then I found out about a month and 2 days later that it 
was, in fact, fratricide that got him and it wasn't the enemy.
    Mr. Honda. At the time of the shooting when you asked what 
had happened, do you recall what the exact wording was that 
they shared with you? Do you remember?
    Mr. Kevin Tillman. It was very nebulous. Pat was running. 
He was outside by a village. He was running up a hill, and he 
got, essentially got shot dead-on. And it made sense in my head 
because to the right, I mean we were surrounded by hills.
    So it was real. There wasn't a lot of specifics to it, but 
I didn't--just when that stuff happens, it is tough to process 
a lot of that stuff anyway. So it was like OK, and your focus 
is the fact that they are gone, and that is your focus.
    It was still very general. He was with O'Neal. O'Neal told 
me they were running up the hill, and they got shot. O'Neal was 
told not to tell me, and so I got a general.
    Private O'Neal was the one with Pat. He was told not to say 
anything because I called him, like who was with Pat. I wanted 
to at least find out who was with him.
    I spoke with O'Neal. He told me generally what happened, 
but he eliminated pretty much everything. He just gave me a 
brief little synopsis, and that was that. I didn't press him 
very hard for whatever reason, and then I found out about a 
month and 2 days later.
    Chairman Waxman. Thank you, Mr. Honda.
    Mr. Mitchell, we are pleased to have you with us, and I 
recognize you.
    Mr. Mitchell. Thank you very much.
    I am not a member of this committee, and I want to thank 
the Chair for allowing me the opportunity to sit with this 
distinguished committee. I appreciate the committee taking up 
this important matter.
    Ms. Lynch, thank you for being here.
    Mrs. Tillman and Mr. Tillman, thank you for being here.
    I wanted to be at this hearing because this is a case that 
is important to so many Americans and especially to my district 
which includes Tempe and Arizona State University. It is 
important to my district because everyone there felt like they 
knew Pat Tillman even though they had never met him.
    He was one of the most popular Sun Devil football players. 
We appreciated his toughness on the field, and we were happy he 
stayed in Arizona to play in the NFL. We were especially proud 
when he and Kevin joined the Army. So it strikes a chord at 
home to think that the Army could have treated his memory and 
his family in the way that they did.
    Most of the questions that I have had have been answered or 
asked during this hearing. I think what is really important is 
that as we read and listen to this, we understand that there 
are regulations that were not followed. There were mistakes 
that were made. But to have a complete investigation, I think 
what is really important and what we are all after is why did 
it happen. Why were the regulations not followed? Why were the 
mistakes made?
    It seems as a result of that, that there happens to be a 
lot of questions that you have said that need to be answered.
    I appreciate so much your being here and my condolences and 
my sympathy and my apologies.
    Thank you.
    Chairman Waxman. Thank you very much, Mr. Mitchell.
    Let me thank you all very much for being here.
    Mrs. Mary Tillman. Can I finish my Abizaid story, please? 
It is very important to me.
    Chairman Waxman. Yes, please.
    Mrs. Mary Tillman. General Abizaid said, if I may go back, 
that he was in Iraq at the time that the P4 message was sent.
    And on the Pentagon Web site there is an article and there 
is a press release where, Abizaid was actually in Qatar on 
April 30th, and in that piece he makes mention of the fact that 
the day before, April 29th, that he was in Afghanistan, 
visiting Pat's platoon leader. Pat's platoon leader was shot in 
the face in the same exchange of fire.
    And at that time, the platoon leader really didn't know 
that he was killed by or wounded by friendly fire or 
fratricide. And so, that is kind of the excuse, I guess, 
Abizaid has given or other people have given to indicate, oh, 
well, even though he was in Afghanistan. Lieutenant Uthlaut 
didn't know he was wounded by friendly fire. Therefore, he 
couldn't have told Abizaid.
    Well, I contend that almost every soldier in Afghanistan at 
that point knew Pat had been killed by fratricide. So the idea 
that they wouldn't tell Abizaid what was going on if he didn't 
already know is ridiculous.
    And Abizaid, at the time, was dealing with Iraq that was an 
absolute nightmare. The fact that he would go to Afghanistan to 
visit a lieutenant that is wounded is kind of suspicious. I 
mean why would he do that?
    I am sure Abizaid was not that concerned about Pat. I mean 
he has other things to worry about. But he would be concerned 
about Pat, knowing he as killed by friendly fire or fratricide. 
I mean that would make a huge difference and that could explain 
why he was there.
    I don't know if he talked to Uthlaut on the phone or if he 
talked to him in person, but it doesn't really matter. The fact 
that Abizaid was in Afghanistan on that day indicates to me 
that he probably knew that Pat was killed by friendly fire. I 
just wanted to make that very clear.
    Chairman Waxman. Well, what you are saying underscores the 
reason that you are all before us in this panel because your 
cases illustrate the fact that stories were put out that were 
not true, that they were put out deliberately, and that we 
still don't know how far up this went. We don't know what the 
Secretary of Defense knew. We don't know what the White House 
knew. These are questions the committee seeks answers to.
    What we do know is that this was not a series of accidents, 
these stories. They were calculatingly put out for a public 
relations purpose, and they lingered out there for a very long 
time. Even now, there seems to be, as they say, a cover-up to 
try to prevent us from knowing what actually happened in all of 
the circumstances.
    I think this testimony is not just important to you, but it 
is important to all of us. I thank you very much for being 
here. I appreciate it.
    We have a second panel that we want to hear from, but I am 
going to call a recess for 10 minutes, and then we will 
reconvene the hearing.
    [Recess.]
    Chairman Waxman. I ask people to take their seats and ask 
the witnesses to come forward.
    For our second panel today, we have Thomas F. Gimble, the 
Acting Inspector General, Department of Defense. Inspector 
General Gimble will discuss the IG's recent report on Corporal 
Tillman's death and address some of the continuing questions 
concerning the military's handling of Jessica Lynch's story.
    Brigadier General Rodney Johnson is the Commanding General 
of the U.S. Army Criminal Investigations Command [CID]. He will 
discuss Army CID's report, addressing the circumstances 
surrounding Corporal Tillman's death.
    Army Specialist Bryan O'Neal was an eyewitness to Corporal 
Tillman's death and has personal knowledge of many of the 
issues that the DOD IG investigated.
    Senior Chief Petty Officer Stephen White is a Navy SEAL who 
became friends with Corporal Tillman when the two fought 
alongside each other in Iraq. Senior Chief White spoke at 
Corporal Tillman's memorial service on May 3, 2004.
    Lieutenant Colonel John Robinson served as spokesperson for 
the U.S. Army Central Command [CENTCOM], when the stir of Ms. 
Lynch's kidnaping and rescue unfolded in March and April 2003.
    I want to welcome all of you to our hearing today.
    It is the practice of this committee that all witnesses are 
put under oath. So I would like to ask, if you would, to stand 
and raise your right hands.
    [Witnesses sworn.]
    Chairman Waxman. The record will reflect that each of the 
witnesses answered in the affirmative.
    Let us start with Mr. Gimble.

   STATEMENTS OF THOMAS F. GIMBLE, ACTING INSPECTOR GENERAL, 
 DEPARTMENT OF DEFENSE; BRIGADIER GENERAL RODNEY JOHNSON, ARMY 
 CRIMINAL INVESTIGATIVE COMMAND; SPECIALIST BRYAN O'NEAL, U.S. 
  ARMY; SENIOR CHIEF STEPHEN WHITE, NAVY SEAL, U.S. NAVY; AND 
 LIEUTENANT COLONEL JOHN ROBINSON, DIRECTOR OF MEDIA SERVICES 
                DIVISION, SOLDIERS MEDIA CENTER

                 STATEMENT OF THOMAS F. GIMBLE

    Mr. Gimble. Mr. Chairman and members of the committee, 
thank you for the opportunity to appear to discuss our review 
of the issues concerning the death of Corporal Patrick Tillman 
and the rescue of Private First Class Jessica Lynch.
    The Army Inspector General as well as Members of Congress 
asked my office to review the circumstances of Corporal 
Tillman's death, and we separated that review into two parts. 
One was CID reviewed the facts up to and through the incident 
itself while we reviewed the events after the incident.
    Our review focused on three areas: the adequacy of the 
investigations, notification of next of kin and the accuracy of 
the documentation to support the award of the Silver Star.
    There were three sequential Army Regulation 15-6 
investigations into the death of Corporal Tillman occurring at 
battalion, regimental and command levels. Each investigation 
established the basic facts of Corporal Tillman's death, that 
it was caused by friendly fire, that the occupants of one 
vehicle in Corporal Tillman's platoon was responsible and that 
those occupants misidentified friendly forces as hostile.
    Each of the three investigations of Corporal Tillman's 
death, however, were deficient and thereby contributed to the 
inaccuracies, the misunderstandings and the perceptions of 
concealment. Those deficiencies are detailed in my written 
statement that include the failure to interview all relevant 
witnesses, failure to address factual inconsistencies in 
witness testimony and drawing conclusions not supported by 
evidence and failure to pursue inaccuracies related to the 
Silver Star.
    The third investigating officer exacerbated the situation 
by sharing findings that were not supported by testimony with 
family members, senior Army officials and Members of Congress.
    Additionally, we determined that the Commander of the Army 
Special Operations Command misled the third investigating 
officer in my office when he denied that he knew friendly fire 
was suspected before the memorial service for Corporal Tillman. 
The third investigating officer failed to pursue those 
misrepresentations.
    With regard to our second area of focus, notification of 
next of kin, we concluded that responsible Army officials 
failed to notify the primary next of kin as soon as they 
originally suspected friendly fire.
    We determined that the Regimental Commander was accountable 
for his decision to delay the notification of the primary next 
of kin and that the Commander of the Army Special Operations 
Command was also accountable because he was in a position to 
ensure the primary next of kin was notified prior to or 
immediately after Corporal Tillman's memorial service but 
decided not to do so.
    In our final area of focus, the Silver Star, we concluded 
that responsible officials failed to comply with the Army 
Military Award Regulation when they submitted a Silver Star 
recommendation that included inaccurate information and a 
misleading citation that implied Corporal Tillman died by enemy 
fire.
    We determined that the Battalion, Regimental and Joint Task 
Force Commanders were accountable for the inaccurate 
recommendation and that the Commanders of the Joint Task Force 
and the Army Special Operations Command were accountable for 
the failure to inform the Army Silver Star Approval Authority 
that some of the circumstances in the recommendation package 
were under investigation.
    My office also reviewed the allegations concerning the 
rescue of Private First Class Jessica Lynch. Representatives 
Rahm Emmanuel and Louise Slaughter requested an investigation 
following the allegations that were reported by the British 
Broadcasting Corporation that the rescue of Pfc. Lynch was a 
premeditated fabrication.
    In coordination with the Inspector General of the Joint 
Staff, we tasked the Inspector General of Central Command to 
conduct an inquiry.
    The Inspector General of the Central Command determined and 
we concur that the allegations were not substantiated. No 
evidence was found that the rescue was a staged media event.
    The operation constituted a valid mission to recover a U.S. 
POW under combat conditions. The rescue as filmed by a combat 
cameraman and a member of U.S. Special Operations Forces in 
accordance with standard procedures. The U.S. Special 
Operations Forces routinely film high priority missions. There 
were no public affairs personnel involved in the planning or 
the filming of the operation.
    The Central Command Inspector General also found no 
evidence of any U.S. military member exhibited inappropriate or 
dishonorable behavior in connection with the Pfc. Lynch rescue 
mission.
    During the mission, U.S. Special Operations Forces received 
enemy fire from the hospital building, surrounding complex and 
nearby areas. They followed the tactics, technics and 
procedures and rules of engagement relevant into the mission. 
The Central Command IG further found no indication that any 
service member was acting for the camera during the rescue 
mission.
    Thank you for the opportunity to appear before the 
committee today to address our investigations concerning the 
death of Corporal Tillman and the rescue of Private Lynch.
    [The prepared statement of Mr. Gimble follows:]

    [GRAPHIC] [TIFF OMITTED] T2898.022
    
    [GRAPHIC] [TIFF OMITTED] T2898.023
    
    [GRAPHIC] [TIFF OMITTED] T2898.024
    
    [GRAPHIC] [TIFF OMITTED] T2898.025
    
    [GRAPHIC] [TIFF OMITTED] T2898.026
    
    [GRAPHIC] [TIFF OMITTED] T2898.027
    
    [GRAPHIC] [TIFF OMITTED] T2898.028
    
    [GRAPHIC] [TIFF OMITTED] T2898.029
    
    [GRAPHIC] [TIFF OMITTED] T2898.030
    
    [GRAPHIC] [TIFF OMITTED] T2898.031
    
    [GRAPHIC] [TIFF OMITTED] T2898.032
    
    [GRAPHIC] [TIFF OMITTED] T2898.033
    
    [GRAPHIC] [TIFF OMITTED] T2898.034
    
    Chairman Waxman. Thank you very much, Mr. Gimble.
    Brigadier General Johnson.

                  STATEMENT OF RODNEY JOHNSON

    Mr. Johnson. Good afternoon, Mr. Chairman and distinguished 
Members.
    I am Brigadier General Rod Johnson, Provost Marshall 
General and Commanding General of Criminal Investigations 
Division.
    Before I read my prepared statement, I would like to offer 
my sincere and deepest sympathies to the entire Tillman family. 
As a father with two kids currently in the military, a son that 
is currently deployed to Baghdad and a daughter who is getting 
ready to deploy for her second time to Baghdad, I cannot begin 
to imagine the pain and grief they have felt over the last 3 
years. I simply offer my personal condolences for their loss.
    To Ms. Lynch, I don't know if she is still in here or not, 
but I just want to thank her for her courage and her continued 
service.
    The U.S. Army Criminal Investigations Command opened a 
criminal investigation on March 6, 2006, at the request of the 
Department of Defense Office of Inspector General, to determine 
if there was any criminality involved in the April 22, 2004 
death of Corporal Patrick Tillman, A Company, 2nd Battalion, 
75th Regiment and an Afghanistan Military Forces soldier and in 
the wounding of two other U.S. soldiers. On March 19, 2007, we 
completed our investigation and forward the results to the DOD 
IG.
    During the course of our very extensive and detailed 
investigation, we found that deaths were caused by members of 
the Ranger unit. The investigation determined that members of 
the unit in question split into two sections referred to as 
Serial 1 and Serial 2. The killed and wounded soldiers belonged 
to Serial 1.
    The investigation found that members of Serial 2 did not 
commit the offenses of negligent homicide or aggravated 
assault. It was determined that Corporal Tillman and the AMF 
soldier were killed when members of Serial 2, believing they 
were under enemy fire, returned fire at what they thought were 
enemy combatants.
    Under extreme circumstances and in a very compressed 
timeframe, we believe that members of Serial 2 had a reasonable 
belief that death or harm was about to be inflicted on them and 
they believed it was necessary to defend themselves.
    The investigation also found and documented additional 
contributors to the incident to include poor visibility, a lack 
of communications between the two serials, unexpected presence 
of the AMF soldier and the residual effects of the weapons fire 
from the start of the ambush. Prior to this incident, AMF 
soldiers were not integrated or trained as fire team members in 
this Ranger unit's operations.
    The investigation provided substantial evidence to 
substantiate the incident surrounding Corporal Tillman's and 
the AMF soldier's deaths as well as injuries sustained by the 
other two U.S. soldiers and that they were caused by members of 
their own unit.
    I can assure that my command investigated this incident 
with a tremendous degree of specificity and left no lead 
unturned. Seven CID special agents and two crime lab examiners 
from the U.S. Army Criminal Investigations Lab deployed to 
Afghanistan April 17th to 29th to conduct an extensive death 
scene examination. Accompanying the agents into Afghanistan 
were two of the soldiers who were eyewitnesses to the events on 
April 22, 2004, when Corporal Tillman was killed.
    While in Afghanistan, more than 80 interviews were 
conducted to include identifying and interviewing an Afghan 
doctor who allegedly passed information to the Rangers prior to 
the incident, identifying and interviewing the local truck 
driver who accompanied the Rangers and determining the identity 
of the Afghan soldier who was also killed in the incident.
    In addition to the interviews, forensic processing of the 
death scene included video reenactments, rock and soil samples 
from Corporal Tillman's position and trajectory analysis. In 
total, CID conducted more than 200 interviews worldwide and 
processed numerous pieces of evidence to the crime lab for 
analysis.
    Our final report is thorough. It is detailed at over 1,100 
pages in length.
    That concludes my statement, and I will be prepared to take 
questions, Mr. Chairman.
    Chairman Waxman. Thank you very much.
    Before we hear from Specialist O'Neal, let me ask the 
audience to recognize that you are an audience, not a 
participant in this hearing. So we would like to ask you to 
refrain from any kind of demonstrations.
    Mr. O'Neal.

                   STATEMENT OF BRYAN O'NEAL

    Mr. O'Neal. Thank you, Chairman and members of the 
committee. I would like to thank you for allowing me to come 
here today and speak on behalf of Corporal Pat Tillman.
    I would like to say that I joined the Army in June 2003, 
and by December 2003, I was assigned to 2nd Battalion, 75th 
Ranger Regiment. I found myself under direction of Corporal Pat 
Tillman. He was my team leader up until the point when he was 
killed.
    After that, I stayed with 2-75 until December of this past 
year, and now I am currently assigned to 4th Battalion Ranger 
Training Brigade.
    I would thank you for allowing myself to be here.
    Chairman Waxman. You are here to answer questions 
primarily, sir.
    Mr. O'Neal. Yes.
    [The prepared statement of Mr. O'Neal follows:]
    [GRAPHIC] [TIFF OMITTED] T2898.035
    
    Chairman Waxman. Thank you very much.
    I would like to call on Senior Chief Petty Officer Stephen 
White.

                   STATEMENT OF STEPHEN WHITE

    Mr. White. Thank you, Mr. Chairman, members of the 
committee. I appreciate the opportunity to be here.
    I will be hopefully clarifying, through questions, the 
information I was given the morning of the memorial for the 
original write-up of my friend Pat Tillman's Silver Star.
    Chairman Waxman. Thank you very much.
    Lieutenant Colonel Robinson.

                   STATEMENT OF JOHN ROBINSON

    Mr. Robinson. Good afternoon, Mr. Chairman.
    I am Lieutenant Colonel John Robinson, Chief of the Media 
Services Division in the Soldiers Media Center as part of Army 
Public Affairs here in Washington. I was assigned to Central 
Command Public Affairs from June 2002, until July 2005.
    Thank you and I look forward to answering your questions.
    Chairman Waxman. I want to start with you, Specialist 
O'Neal, and I want to thank you for being here to testify about 
these events. I know it must be difficult for you to revisit.
    But we have asked you here for a number of reasons, one of 
which is to find out exactly what happened to Pat Tillman on 
April 22, 2004, 3 years ago this week. You were there. You were 
a firsthand witness. In fact, you were the last person to see 
Pat Tillman alive.
    Let me begin by asking you about the events leading up to 
the shooting. When the platoon split up, you were part of the 
front group referred to as Serial 1 which is the same group 
Corporal Tillman was with, is that right?
    Mr. O'Neal. Yes, sir.
    Chairman Waxman. You had a Afghan soldier with you as well, 
is that right?
    Mr. O'Neal. The Afghan soldier, after the ambush and 
Corporal Tillman and I dismounted our GMVs and started to 
assault the position, the enemy position, that is when I 
discovered the Afghan militiaman had dismounted with us, but he 
was not in our GMV that we were riding in, sir.
    Chairman Waxman. You were positioned on a ridge overlooking 
the road on which the other half of the platoon, Serial 2, was 
traveling, is that correct?
    Mr. O'Neal. Yes, sir.
    Chairman Waxman. Can you describe why your team was 
positioned on that particular ridge?
    Mr. O'Neal. Well, Pat and myself and the AMF soldier, when 
we dismounted and started moving toward a position where we 
finally ended up being in, had direction, I believe, from the 
squad leader that was from a different squad who was also in 
the GMV I was riding in. He had basically directed us to go 
along that side of the ridge, and they were covering the other 
side, and that is, to my knowledge, why we were in that 
position.
    Myself, being a private at the time, I was just following 
my team leader and where he went, I went there and tried to go 
there faster, sir.
    Chairman Waxman. I am sorry to have to ask you this, but I 
would like you to tell us in your own words what happened right 
before and after Corporal Tillman was killed. Walk us through 
in as much detail as you can recall. What was Corporal Tillman 
doing at the time?
    Was he trying to signal that this might be friendly fire?
    Was he signaling with his arms?
    Was he yelling? What was he saying?
    Could you just tell us about it?
    Mr. O'Neal. Yes, sir. When we moved into our final 
position, Pat and I and the Afghan militiaman had decided, or 
Pat decided, we were going to continue to assault, and he 
wanted further guidance from the squad leader that was 
controlling our element. So he left myself and the AMF soldier, 
and when he returned, he basically let me know that we were 
going to continue moving in the route that we were.
    And before he was able to finish telling me what our plan 
was, we had started to receive fire from a GMV. At first, it 
was short, sporadic. We didn't really, I didn't really 
understand what was happening. I looked and saw that it was 
friendly fire coming toward us.
    Pat asked me basically what was going on, and I let him 
know, and it didn't take long before those in the GMV who were 
stopped at the time to dismount and open up on us with the .50 
caliber machine gun and the 240 Bravo machine gun and basically 
shot at us, at us, in waves or bursts of rounds.
    At that time, I felt myself become limp and I got down. I 
had no cover, and there was nothing blocking my sight, watching 
the people at the humvee shooting at us. I know Pat basically 
was able to get himself behind some cover, but it was not much.
    I basically was yelling, waving from on the ground as much 
as I could, and I believe Pat was too at the time because he 
was behind me and talking to him, yelling, screaming, trying to 
figure out what was going on when he told me he had a plan. And 
he, at the time, I thought popped a pin gun flare, to signal 
the troops down in the GMV that we were friendlies. But I later 
discovered he had popped a smoke grenade.
    After he had done that, the firing ceased in the truck. So 
we had both believed at that time, that the shooting was over 
and that they had recognized us as friendlies. And we both 
stood up, faced each other, was kind of wondering, hey, what 
just happened there? Wow, it was an accident. Luckily, we are 
both still alive.
    It didn't take long after that, sir, before they moved into 
a better position, as I said, in the GMV and started shooting 
at us again. And at that time, both of us had gotten down. I 
was watching them do that, and I can hear Pat calling: ``Stop 
shooting. I am Pat F'ing Tillman. Stop shooting,'' you know, 
over and over and over again.
    And I could hear the pain that he had in his voice. So I 
had know that he was hurt at that time. And it abruptly stopped 
with him calling for help, and it wasn't too long after that 
before the truck had moved out.
    So I laid on my side for a while, wondering what had just 
happened because I was young and I didn't really understand 
when I discovered there was a large pool of blood forming up 
around me.
    Chairman Waxman. Did you have any doubt at that time that 
it was friendly fire that killed Pat Tillman?
    Mr. O'Neal. No, sir. I am 100 percent positive that was 
friendly fire.
    Chairman Waxman. Who was the first person you informed that 
the attack may have been a friendly fire shooting?
    Mr. O'Neal. The very first person I informed was right 
after I got up and checked on Pat and discovered he was dead. 
The guy, the squad leader I called for, came to my position, 
and I believe he knew. But when our medic came up to come 
assist us, he asked what happened, and I tried to let him know.
    Chairman Waxman. Who is he? Can you identify the name?
    Mr. O'Neal. That would be Sergeant Anderson.
    Chairman Waxman. Sergeant Anderson.
    Mr. O'Neal. And he basically asked me what happened. I 
tried to let him know, but our squad leader told me basically 
just don't say anything at that time.
    And later on that night, the first person I definitely told 
would be Specialist Pedro Ariolla [phonetically]. We were 
inside the little village where we were being or where we had 
set up position in and pulling security on the personnel that 
lived in that village. And he asked me point blank, do you know 
what happened, and I informed him, yes, this was friendly fire, 
sir.
    Chairman Waxman. Did you inform First Sergeant Thomas 
Fuller?
    Mr. O'Neal. Yes, I did, sir. I informed him later that 
night that it was friendly fire.
    Chairman Waxman. How about Command Sergeant Alfred Birch?
    Mr. O'Neal. Yes, sir. He knew at that time, sir.
    Chairman Waxman. You said Sergeant Ward, you did inform?
    Mr. O'Neal. I wasn't--I do not believe I told Sergeant 
Ward. I was pretty incoherent at that time. I was going into 
shock, I believe.
    Chairman Waxman. How about Sergeant Jackson?
    Mr. O'Neal. Sergeant Jackson, I definitely told that it was 
friendly fire, sir.
    Chairman Waxman. Now let me turn to the Inspector General. 
Mr. Gimble, according to your report, on April 23rd, Sergeant 
Fuller and Sergeant Birch told Captain William Saunders and 
Lieutenant Colonel Jeffrey Bailey that they suspected 
fratricide, is that correct?
    Mr. Gimble. That is correct.
    Chairman Waxman. You also found that Colonel Bailey then 
told Colonel James Nixon who in turn told Major General Stanley 
McCrystal, Commander of the Joint Task Force, is that right?
    Mr. Gimble. Right.
    Chairman Waxman. You found that General McCrystal informed 
Brigadier General Howard Yellen, the Deputy Commander of the 
Army Special Operations Command, and all of these 
communications happened no later than April 25th, is that 
right?
    Mr. Gimble. I believe that is correct.
    Chairman Waxman. Your report states that General Yellen 
then contacted Philip Kensinger, a Lieutenant General and the 
Commander of the Army Special Operations Command, and told him 
of the potential fratricide, is that correct?
    Mr. Gimble. Yes, sir, right.
    Chairman Waxman. Specialist O'Neal, let me return to you. 
As we indicated here, you reported this incident as you should 
have. Then it went up the chain of command, and within 72 
hours, at least nine military officials knew or were informed 
that Pat Tillman's death was of fratricide including at least 
three generals.
    Given that so many people in the military were informed so 
quickly that this was fratricide, does it trouble you that the 
Tillman family was kept in the dark about this for another 
month?
    Mr. O'Neal. Yes, sir, it does. I wanted right off the bat 
to let the family know what had happened, especially Kevin 
because I worked with him in the platoon, and I knew that him 
and the family, both needed or all needed to know what had 
happened. And I was quite appalled that when I was able, 
actually able to speak with Kevin, I was ordered not to tell 
him what happened, sir.
    Chairman Waxman. You were ordered not to tell him?
    Mr. O'Neal. Roger that, sir.
    Chairman Waxman. By whom?
    Mr. O'Neal. At that time, it was by our battalion 
commander, Lieutenant Colonel Bailey, sir.
    Chairman Waxman. Did he give you a reason or just an order?
    Mr. O'Neal. He basically just said, sir, that do not let 
Kevin know. He is probably in a bad place knowing his brother 
is dead, and he made it known that I would get in trouble, sir, 
if I spoke with Kevin on it being fratricide, sir.
    Chairman Waxman. Mr. O'Neal, you were not just an 
eyewitness, but you were also involved in writing the statement 
that was used to award Corporal Tillman the Silver Star, but 
serious questions have now been raised about whether someone 
tampered with your statement.
    Let me start by asking you whether you remember the point 
in time when you were asked to write down your recollections of 
that day.
    Mr. O'Neal. I couldn't tell you an exact date, sir, of when 
I was actually told to sit down behind a computer and type up 
what I can remember, but I do remember actually doing it, sir.
    Chairman Waxman. Thank you.
    I am going to recognize my colleagues. I do want to pursue 
that. Perhaps they might in their questions as well.
    Mr. Clay, I think you are next.
    Mr. Clay. Thank you, Mr. Chairman.
    Let me go to Inspector General Gimble. Since March 2003, 
there have been 70 female soldiers killed in action in Iraq; 22 
of them have been listed as non-combat related deaths; 4 of 
those casualties were from Missouri; 1 of them, Private Levena 
Johnson, was my constituent. Her parents have been requesting 
additional information regarding the circumstances of her death 
for almost 2 years.
    This week at my request on behalf of the Johnson family, 
this committee has issued a letter to the Department of 
Defense, seeking key information that is yet to be provided. 
That request includes a CD containing the original photos from 
the criminal investigation into Private Johnson's death and the 
original autopsy photos, missing medical records from Private 
Johnson's file, all psychological evaluations that may have 
been made of Private Johnson and the identity of the lead 
investigator into her death.
    Inspector General, can you assure this committee that our 
request will be acted on with all deliberate speed and that the 
Army will make a maximum effort to provide us with full 
disclosure of this information?
    Mr. Gimble. Mr. Congressman, I haven't seen the request. 
Typically, if it goes through Army channels, we don't. We are 
not involved in it. If it comes through the DOD IG channels, 
then we will do the things necessary to try to expedite that 
release of information as appropriate.
    Mr. Clay. This is to the Acting Secretary of the Army. Will 
you have any involvement with that request?
    Mr. Gimble. Actually, then the Army will take care of that 
unless there is some other reason. It just goes through Army 
channels rather than DOD IG channels.
    Mr. Clay. Well, thank you for that response.
    Let me go to Senior Chief White. Thank you for being here 
today.
    You were the only active member of the armed forces who 
spoke at Corporal Pat Tillman's May 3rd memorial service. How 
did you know Pat Tillman?
    Mr. White. I had worked with him at the beginning of the 
Iraq War.
    Mr. Clay. How was it that you were asked to participate in 
the memorial service?
    Mr. White. When I heard about Pat's death, I called the 
family. Kevin had called me back, and I told him that I was 
going to try to make it out for the memorial. Two days later, I 
got a call from the organizers of the memorial, asking me if I 
would do a speech, if I would be a speaker, and that request 
came from Kevin and Marie.
    Mr. Clay. From the family?
    Mr. White. Yes, sir.
    Mr. Clay. Thank you.
    I would like to play a video clip from the remarks you made 
at Corporal Tillman's memorial.
    [Video shown.]
    Mr. Clay. Thank you so much.
    You were not with Corporal Tillman in Afghanistan when he 
was killed, is that correct?
    Mr. White. That is correct, sir.
    Mr. Clay. How did you become aware of the details 
surrounding his death?
    Mr. White. The initial sporadic stuff that I got was from 
Kevin himself. The morning of the memorial, I don't recall 
exactly how I got word, but I knew that they wanted me to 
present or let the family know that he was going to be 
presented with the Silver Star.
    In order to do that in the presentation, I wanted to 
basically summarize what had happened on the target site. I 
called an enlisted person, whose name I cannot recall. I 
believe he was with the 75th Ranger Battalion. That morning, he 
read the citation to me over the phone. I summarized in my own 
words, asked him if that was an accurate summarization, and he 
said it was, and that is what I went with in my speech.
    Mr. Clay. Thank you very much for that.
    For my last question, Mr. Chairman, Brigadier General 
Johnson, you heard the question that I asked the Inspector 
General. I believe that this issue comes before you about 
Private First Class Levena Johnson. Are you familiar with the 
Freedom of Information request that I have sent forward?
    Mr. Johnson. No, I am not. I have not seen that request 
yet.
    Mr. Clay. Can we count on the Army to deal with this issue?
    Mr. Johnson. As soon as we get that request, we will 
process it.
    Mr. Clay. You will process it. Thank you so much.
    Mr. Chairman, I yield back.
    Chairman Waxman. Thank you very much, Mr. Clay.
    Mr. Braley.
    Mr. Braley. Thank you.
    Specialist O'Neal, thank you for appearing today.
    In addition to being an eyewitness to Corporal Tillman's 
death and reporting this incident up the chain of command, you 
were also involved in writing a statement that was used to 
award Corporal Tillman the Silver Star. Do you remember that?
    Mr. O'Neal. Yes, sir.
    Mr. Braley. Now we are aware of serious questions that have 
been raised as to whether someone tampered with your statement. 
Let me start by asking you whether you remember the point in 
time when you were asked to write down your recollections of 
that day.
    Mr. O'Neal. I can't say I remember the exact point in time 
where I was informed that I would be writing up a witness 
statement toward what happened. I just remember having my 
platoon sergeant at the time tell me that I was going to be 
writing up a statement on what happened for an award for Pat, 
sir.
    Mr. Braley. But can you give us some general timeframe in 
the sequence of events that you have been discussing here today 
to give us some context into when that request was made by your 
platoon sergeant?
    Mr. O'Neal. I would say a general timeframe, probably April 
26th or 27th. We didn't get back to Salerno for a few days 
after Pat was killed. So as soon as we got back to Salerno, 
that is when I was advised or asked to write the statement, 
sir.
    Mr. Braley. I have been involved in 23 years of being an 
attorney and having witnesses prepare statements. Was this a 
situation where they gave you a sheet of paper and told you to 
write down in your own words your best recollection of the 
events that had happened or did someone prepare a statement for 
you to review and sign?
    Mr. O'Neal. What happened, sir, was I got sat behind a 
computer, and I was told to type up my recollection of what 
happened, and as soon as I was done typing, I was relieved to 
go back to my platoon, sir, and that was the last I heard of 
it.
    Mr. Braley. So when you finished typing your statement, it 
was in a digital format that had not been printed out, is that 
correct?
    Mr. O'Neal. Roger that, sir.
    Mr. Braley. No one printed it out and asked you to review 
it and verify it and sign it at the time it was originally 
drafted by you?
    Mr. O'Neal. No, sir.
    Mr. Braley. At any time, did you ever sign in your 
handwriting a statement that you had reviewed and verified the 
authenticity of?
    Mr. O'Neal. Negative, sir.
    Mr. Braley. Now I want to ask you about the statement that 
was ultimately used in the Silver Star commendation. This 
version of the statement says the following: ``Corporal Tillman 
moved us into a position where we would be safe from enemy 
rounds.''
    To the best of your recollection, did you write this 
sentence?
    Mr. O'Neal. That sentence sounds like something I would 
have wrote, sir.
    Mr. Braley. Where were the enemy rounds?
    Mr. O'Neal. We weren't taking direct enemy rounds, sir, at 
that time, but we moved into a position where if we would have 
been, we would have been safe, sir.
    Mr. Braley. Did Corporal Tillman shield you from enemy 
rounds at any time?
    Mr. O'Neal. Negative, sir.
    Mr. Braley. This version of the statement also says you 
``engaged the enemy very successfully,'' that the enemy moved 
most of their attention to your position which ``drew a lot of 
fire from them.''
    Did you write these sentences, claiming that you were 
engaged with the enemy?
    Mr. O'Neal. No, sir.
    Mr. Braley. Do you know who made the changes to your 
statement to make it appear as if you were receiving fire from 
the enemy rather than from your own platoon?
    Mr. O'Neal. No, sir.
    Mr. Braley. Mr. Gimble, the Inspector General's Office 
investigated these alterations to the witnesses' statements and 
flagged these differences as well. But in the course of your 
investigation, did you ever discover who specifically changed 
this language and why that language was changed?
    Mr. Gimble. Let me just say this. The citations that we got 
were part of the package that we got out of the General Jones 
investigation, and they were not signed. It just had stamped as 
original signed.
    And our investigators went back to Specialist O'Neal and 
the Sergeant and said, did you write these, and they said, no, 
that they did not, OK, that there was parts of that was 
accurate, parts of it were inaccurate.
    We were unable to determine who in the chain of command 
actually did the alterations of it. So we concluded that when 
people approved those statements or those citations based on 
those statements, being the Battalion, Regimental and Joint 
Task Force Commanders, that they were accountable for the 
misstatements and inaccuracies.
    Mr. Braley. Well, I have been through my father's service 
records from when he served on Iwo Jima, and there are 
signatures on almost every documentation of anything he did 
during the entire time he was enlisted.
    Is it your understanding that this practice of taking 
unsigned statements in support of a commendation recommendation 
is standard operating procedure within the Army?
    Mr. Gimble. I would not believe it is, but I would only 
point out that on the Silver Star, there actually does not have 
to be a valorous witness statement at the time this occurred. 
It can just be a citation.
    Mr. Braley. Did you ever determine in the course of your 
investigation who, out of all the possible people who had 
contact with that statement, would have been the most likely 
person to have made alterations to the statement originally 
prepared by Specialist O'Neal?
    Mr. Gimble. Actually, no, we could not determine that. I 
could speculate, but I just prefer not to. It is somewhere in 
the approval chain that it got edited. So we really can't pin a 
face to the actual, who did the keyboard changes on it.
    So that left us the only action we had after that is when 
you sign up on something. Like when I sign something in my 
office, I am assuming the responsibility for it and the 
accuracy, and I hold myself accountable.
    So when you have the signatures on those citations and 
recommendations, they become accountable for it.
    Mr. Braley. As part of your investigation, did you ever 
bring in an IT specialist to look at the hard drive on that 
computer or any other computer that document had been placed 
upon to determine who had access to the computer and was 
responsible for the alteration?
    Mr. Gimble. We got this as a hard copy printout in the part 
of the investigative package from the General Jones 
investigation.
    Mr. Braley. So did you ever determine the computers that it 
had been on and who had access?
    Mr. Gimble. No, we did not.
    Mr. Braley. Do you think that would be a sensible followup 
part of an investigation looking into who might have been 
responsible for altering a document of this magnitude?
    Mr. Gimble. It would be a good thing, but the issue would 
be that it was 2 years before in theater and we were, I am not 
sure we could ever track the computer down.
    Mr. Braley. Well, we wouldn't know that unless we actually 
tried to track it down, would we?
    Mr. Gimble. Correct. We wouldn't.
    Mr. Braley. Specialist O'Neal, I want to give you the 
opportunity to followup on a response you were making in 
response to Chairman Waxman, and he had to cut you off to keep 
the hearing moving.
    You were talking about after the shooting, whether or not 
Corporal Tillman was dead immediately, and then you had to stop 
your narrative of that. Would you continue with your narrative 
of what you were saying at the time?
    Mr. O'Neal. Not a problem, sir.
    I started off. At that time I was on the ground, and I 
noticed blood pooling up around me, and at that time I had 
thought that I was shot.
    So I started communicating with Pat not realizing he had 
passed away, asking him if he had been OK, and I had no 
response. And the blood was, there was a lot of blood 
everywhere, and I was starting to get really worried.
    So when I could finally get my body to move, I stood up and 
turned around and looked at Pat, and he was slumped back on the 
ground, covered in blood. And I went up to his position. I 
grabbed him and realized at that time that he had been shot in 
the head, and there wasn't much left of him.
    After that, I kind of blanked out, I really--the next thing 
I remember was Sergeant Ward who was part of Third Squad, 
telling me to pick up my helmet, and I didn't even remember 
taking it off. Putting me on security. Getting me to move out 
of the ridgeline that we were in.
    And I just have little chunks of my memory will come back 
and then will go away. Basically, that is the end of the night 
when I am standing on the side of the building, pulling 
security, and the Regimental Sergeant Major, Sergeant Major 
Birch, comes up to me and asks me if I am all right.
    And after that, the next thing I remember, being inside a 
room, pulling security on the local personnel and telling 
Specialist Ariolla that Pat had been killed by friendly fire, 
sir.
    Mr. Braley. Thank you.
    Chairman Waxman. Thank you, Mr. Braley.
    Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair.
    Thank you, Specialist O'Neal for being here today and for, 
I am sure, really very painful memories as well as painful 
testimony, the circumstances you find yourself here, as Mr. 
Braley pointed out, having your name attached to the document 
that you did not write.
    I would like to ask this of Mr. Gimble and Lieutenant 
Colonel Robinson. Can either of you tell me how many videos 
have been taken of missions such as Jessica Lynch's? How many 
videos have been taken?
    Mr. Robinson. I am sorry. I don't understand the question.
    Ms. McCollum. How many video teams in either the Iraqi 
theater or the Afghani theater, how many videos have been taken 
of this type of mission?
    The Inspector General says this is rather routine. So I am 
sure you can tell me how many videos have been taken.
    Mr. Robinson. There was innumerable. During the briefing 
that was provided from Qatar in the initial days of Operation 
Iraqi Freedom, there were visuals of various different types 
coming in from many different directions and sources and 
platforms to include weapons video, public affairs people, 
combat journalists, etc.
    Ms. McCollum. So this wasn't classified then if it was 
given to the news media?
    Mr. Robinson. The video itself?
    Ms. McCollum. Yes.
    Mr. Robinson. The video for Jessica Lynch was provided to 
us from a Special Operations unit, and when we received it at 
the Press Briefing Center, it had already been edited to a 
large degree. My belief was that they had already cleaned it of 
anything that was in the video that was classified.
    Ms. McCollum. To the Inspector General, can you tell me if 
you know, for Special Forces, how routine this is and how often 
they are cleaned up and given to the media?
    Mr. Gimble. I don't have a count on that because I am told 
that it is a routine procedure, but I don't really have a count 
and haven't looked at how many times it occurs.
    Ms. McCollum. You are doing an investigation. If somebody 
tells you it is routine, you don't go any further.
    Mr. Gimble. We didn't do the investigation. The Central 
Command IG did the investigation.
    Ms. McCollum. OK, well, I have something that is on here, 
and I will check later on, but it says the statement of Mr. 
Thomas Gimble, Acting Inspector General. So I will figure out 
where page 10 came from later.
    Can you tell me how high up this investigation?
    I can't find in this report every single person that you 
spoke with. I mean anybody in the Pentagon. Mr. Rumsfeld 
obviously referred to the Tillman case. How high up the chain 
of command did you go or should I ask how high up the chain of 
command were you allowed to go?
    Mr. Gimble. We actually had a letter. We didn't interview 
the Secretary, but we had a letter requesting information which 
he provided on about the day he left the Department, and it 
dealt specifically with the P4 issue.
    We interviewed General Abizaid, General Brown and other 
generals that we identified in the report as being accountable, 
and we interviewed over 100 people.
    So the P4 message, if that was the question as to how high 
that went, according to what we have is that it went to General 
Brown. He looked at it, and he is the Commander of Special 
Operations Command, but he was not in the chain of command. So 
he acknowledged that he received it but did nothing with it.
    General Kensinger was the Commander of the U.S. Army 
Special Operations Command, and he received it and was the 
senior representative at the memorial service. And that is why 
we held him accountable in our report saying you should have 
informed the family because you reasonably suspected friendly 
fire.
    We interviewed General Abizaid, and this is detailed in the 
report. But he had a P4 message, but he was in theater and it 
didn't catch up to him until after the memorial service.
    Ms. McCollum. Is everybody you speak to under oath?
    Mr. Gimble. All the ones that we speak to and interview are 
under oath, yes, ma'am.
    Ms. McCollum. General Abizaid was under oath?
    Mr. Gimble. He was under oath.
    Ms. McCollum. Did you talk to anybody in communications in 
the Pentagon to find out how high up people knew about this and 
knew about when it went from friendly fire and when they found 
out?
    I am assuming that there were an awful lot of people 
involved in putting together this memorial service because they 
knew of the high attention it was going to get. So I am 
wondering if you talked to everybody involved in the memorial 
service and how high up it went as far as people knowing about 
the friendly fire and the Silver Star.
    Mr. Gimble. Let me clarify one at a time. Let me clarify 
the notification. What happened is when the event occurred on 
April 22nd, the notification of next of kin went out as hostile 
fire, and I think that is on the record.
    What occurred shortly thereafter within the next day or so 
when they determined that fratricide was suspected, the proper 
way to have handled that was to put a supplementary 
notification report in which would have changed the 
notification from hostile fire to unknown, pending outcome of 
the investigation. That simply was not done.
    Now there was a very close hold group as best we can tell 
that really knew that friendly fire was suspected when I am 
talking in terms of the chain of command.
    Ms. McCollum. At the memorial service, you stated that the 
senior officer that spoke had every indication that was not 
correct.
    Mr. Gimble. Absolutely.
    Ms. McCollum. There was no one, no senior DOD, Department 
of Defense person representing the Secretary's office. There 
was nobody higher up there that knew what was going on. Did you 
investigate to find out if they knew?
    Mr. Gimble. We asked. We went to the Secretary of Defense 
in writing and asked what he knew and when he knew, and we got 
a letter back from him dated December 15, 2006. And he 
basically said that he was unaware until sometime in the May 
20th timeframe, and that basically kind of ties in with when 
the 15-6.
    Ms. McCollum. When I asked you if everybody was under oath, 
you didn't speak directly.
    Mr. Gimble. We did that in a letter. He was not under oath. 
That part was in a letter.
    Ms. McCollum. How long did it take him to respond back to 
your letter because it usually takes me 6 to 9 months to get an 
answer back?
    Mr. Gimble. Well, he responded on about the day he left. So 
I think we had actually put it over there about 2 weeks. I need 
to get back to you on the specific time when we went over and 
asked, but it was not 6 months.
    When we do the investigation, we come from the bottom on 
it. As we interviewed, we started with the more junior people 
and we interviewed up until we got to the senior levels, and he 
was kind of the last person that filled in that gap for us.
    Ms. McCollum. Who has been held accountable for all these 
bad reports that you state here?
    Mr. Gimble. We referred those back to the U.S. Army. We 
identified the nine people in the report. Provided those back. 
They have that down under, I guess the right term is inquiry.
    The Commanding General of the Training Indoctrination 
Command, General Wallace, has been tasked by the Acting 
Secretary of the Army to assess all the facts based on the data 
that both we gathered and also what Johnson's review gathered, 
and they are determining, we determined accountability. They 
are going to determine culpability if there is.
    Ms. McCollum. You determined accountability.
    Mr. Gimble. Right. On page 59 of the report in our 
conclusions, we lay those out.
    Ms. McCollum. It sounds to me from just gleaning through 
this report and all, that it was pretty obvious that these 
reports weren't done right. Witnesses weren't spoken to, 
whatever.
    I would like, in final, to ask you about a news article, 
CBS Washington News. It appeared on April 20, 2007. It talks 
about Specialist Jay Lane.
    He laid in a hospital bed in Afghanistan, recovering from 
gunshot wounds inflicted by the same fellow Ranger who shot at 
Tillman. Amid his shock and grief, Lane said he noticed guards 
were posted on him. ``I thought it was strange,'' Lane 
recalled.
    Later he said he learned that the reasons for their 
persistence. The news media were sniffing around, and Lane's 
superiors, and these are Lane's own words, ``did not anyone 
talking to us.''
    Did you talk to anybody about the security that was placed 
on people who were part of the unit that was fired on?
    Mr. Gimble. Did not.
    Ms. McCollum. You didn't?
    Mr. Gimble. No.
    Ms. McCollum. Well, sir, in my opinion, and I will take the 
time to read this from cover to cover, I have to say I wasn't 
impressed with the investigations that you reviewed. You 
weren't impressed with them, and I am not impressed with yours.
    Thank you, Mr. Chair.
    Chairman Waxman. Thank you, Ms. McCollum.
    Just before I recognize Mr. Sarbanes, I want to ask you 
this question. We started off our hearing about an e-mail from 
the White House, asking for information for the President to 
use at the White House Correspondents Dinner, and there is a P4 
memo that you are familiar with. Do you know whether that memo 
ever went to the White House?
    Mr. Gimble. We think the P4 memo stopped with the three 
generals that were on it. It didn't go any further. We went and 
asked the Secretary of Defense through the letter if he was 
aware of that information, and we got a negative response back.
    So it is my belief that, or based on what we determined 
through sworn testimony, is that General Brown saw it before 
the memorial service, was aware of it and did nothing with it. 
He wasn't in the chain of command.
    Lieutenant General Kensinger was aware of it and he was 
represented as the senior DOD official at the memorial service 
and chose not to share that information with the family. We 
held him accountable for that, and that is part of the 
referral.
    Chairman Waxman. Do you know if there was a response to the 
e-mail sent from the White House?
    Mr. Gimble. I am not aware of any. That is kind of the 
Public Affairs chain of command, and this didn't. The message I 
see here was the question that do you have background on why 
Corporal Tillman joined the Army, and that wasn't really a part 
of what we were looking at.
    Chairman Waxman. So you didn't review the Public Affairs 
documents?
    Mr. Gimble. This one.
    Chairman Waxman. Which would have shown if there was an 
answer to the White House e-mail.
    Mr. Gimble. I don't know that there was an answer to this 
specific thing. We were asking if the P4 message, and we know 
that from what we can tell about it.
    Chairman Waxman. Right. I understand what you said, but 
what I have asked you is the White House sent an e-mail asking 
for information for the President to use in his speech, and I 
asked whether you knew whether there was a response to that e-
mail.
    Mr. Gimble. We didn't look at that. It was in the Jones 
investigation, and we didn't see it as an open issue.
    Chairman Waxman. It is still an open issue?
    Mr. Gimble. No. We said we did not see it as an open issue.
    Chairman Waxman. Well, the reason I ask, of course, is that 
2 days later after the e-mail was sent, the President spoke of 
Pat Tillman at the Correspondents Dinner, and he was very 
careful not to mention how he was killed. Of course, the P4 
memo said exactly that. Be careful to not talk about how Pat 
Tillman was killed.
    Mr. Sarbanes.
    Mr. Sarbanes. Thank you, Mr. Chairman.
    Mr. Gimble, I am trying, as Representative McCollum was a 
moment ago, to get my head around the investigations that 
occurred right after the incident and then from that point 
forward. Obviously, the death of this brave soldier was a 
tragedy, but the travesty is then what followed very quickly 
which can only be viewed as a kind of impulse to cover up 
basically what had happened.
    I was looking through your prepared testimony again, and 
you say that the errors in reporting within the chain of 
command bear ultimate responsibility or that the chain of 
command bears ultimate responsibility for the inaccuracies, 
misunderstandings and perceptions of concealment that led to 
our review.
    After your review, do you think is a situation where we are 
dealing with a perception of concealment or actual concealment?
    Mr. Gimble. Of course, if you are asking my opinion, I 
think it was not a well handled after the fact. The Army did 
not handle this very well. I think they recognize that.
    I don't see that it was a cover-up because the 
investigations, the failure was to share with the family. The 
investigations pretty much right off the start all concluded 
the same thing, that it was a friendly fire incident.
    OK, there was some mistakes made on how they appointed the 
investigating officers. There was some less than a lot of the 
people that should have been interviewed were not interviewed. 
It just, you know. The rules and regulations for the protection 
of evidence were not followed.
    We point out all of those issues, all those deficiencies in 
those investigations and we have referred that back to the Army 
to see if there are things that they think. We are saying they 
are accountable. There were mistakes made.
    Now they will make the determination if there is any 
additional administration or criminal punishments necessary.
    Mr. Sarbanes. At the ground level, you talk about how the 
first investigation was deficient. The second investigation was 
deficient. Then there was a third investigation that was 
deficient. There was a failure to abide by the protocols that 
would normally be triggered right away in terms of having a 
legal investigation into friendly fire death be conducted by 
the Combatant Commander, that the Regimental Commander failed 
to notify the Army Safety Center of a suspected friendly fire 
death as required by Army regulation.
    We take a lot of confidence or we want to take a lot of 
confidence that the Army will act in accordance with the 
procedures and protocols that govern whatever the circumstance 
is. It is just a kind of strains credulity here that there were 
two and three instances of not following the procedures which 
makes it hard believe that after a certain point in time, this 
was accidental, that there wasn't some kind of pressure, not 
maybe direct but atmosphere of indirect pressure being brought 
to bear.
    The most interesting thing to me is we have already heard 
testimony that very quickly the word of this being a friendly 
fire incident started going up the chain. Is that correct?
    Mr. Gimble. That is correct.
    Mr. Sarbanes. I mean within days.
    Mr. Gimble. Within the next day.
    Mr. Sarbanes. So you have people at the highest levels who 
now knew that this was a highly likely friendly fire incident. 
Nevertheless, they did not intervene to fix the procedure that 
was totally out of whack.
    You had this kind of informal sense of what happened. Then 
you have people going through the process but not going through 
the process correctly, and there is no attempt by the folks at 
the higher level to intervene or interrupt this faulty process 
over here and try to fix it. Is that correct, at least a 
description of what was going on?
    Mr. Gimble. That is pretty correct. There was knowledge 
that there was suspected friendly fire. Now the question 
becomes it should have been designated as unknown until the 
investigation was completed and that, they failed to do. I mean 
there is no question. They failed.
    Mr. Sarbanes. I guess I want to point to three breakdowns: 
A breakdown in the procedure that should have been implemented 
right from the start.
    Mr. Gimble. Right.
    Mr. Sarbanes. A breakdown in terms of conveying, which 
correct procedure would have done, conveying it to the family 
would have happened.
    But third and as troubling, if not more troubling, a 
breakdown in the sense that people at the highest levels, or 
much higher levels in any event, knew that the story was 
different and didn't somehow intervene to try to get this thing 
back on track both for the benefit of the Army acting in 
accordance with its protocols and for the benefit of the family 
understanding what had really happened.
    Mr. Gimble. I think you would find our summary in the 
report, that they have the statement that says we find no 
reasonable explanation for this failure to follow the 
regulations.
    Mr. Sarbanes. Thank you, Mr. Chairman.
    Chairman Waxman. Would you yield to me, Mr. Sarbanes?
    Mr. Sarbanes. Yes, absolutely.
    Chairman Waxman. I still want to pursue this question about 
this P4 memo. The P4 memo was sent to three generals, to 
Kensinger, Abizaid and Brown. Abizaid said he didn't get it 
until later. Kensinger got it before the memorial service.
    The memo is advising these generals to let Secretary of 
Defense and others know that there may be a problem if they 
refer to how Pat Tillman was killed.
    You asked the Secretary of Defense, Mr. Rumsfeld, whether 
he ever received that P4 memo. You never asked him personally, 
but you asked him in writing, and he came back and said, no. 
How is that believable that three generals wouldn't send up the 
chain of command a memo like this?
    Mr. Gimble. The addresses on the P4 were the three 
generals. I can't explain why they chose not to move that up 
other than General Kensinger, as I understand it, wanted to not 
move forward with the notification until he had all the facts 
laid out as to whether it was friendly fire or not. There was 
still that investigation. Those investigations were going on.
    Chairman Waxman. You didn't pursue this further?
    Mr. Gimble. Well, what we did is we thought, he actually 
told us that he didn't know about it until after the ceremony 
himself, and that is one of the ones that we referred to the 
Army to look at.
    Chairman Waxman. Did you request any documents from 
Secretary Rumsfeld to verify this?
    Mr. Gimble. We have a letter back from him.
    Chairman Waxman. Just a letter?
    Mr. Gimble. A letter, correct.
    Chairman Waxman. Mr. Honda?
    Mr. Honda. Thank you, Mr. Chairman.
    Following up on that, Mr. Gimble, would you submit that 
letter as a matter of record, please?
    Mr. Gimble. We sure will.
    Mr. Honda. The letter from Mr. Rumsfeld.
    To Mr. Johnson, thank you for saying that you would help 
Mr. Clay with the FOI for one of his constituents.
    We have a parent here from North Dakota that has the same 
request. Would you accommodate her also?
    Mr. Johnson. Yes, sir.
    Mr. Honda. Thank you.
    Mr. Johnson. I mean we process them as fast as we can.
    Mr. Honda. Thank you.
    Mr. Johnson. I just haven't seen those.
    Mr. Honda. Mr. Gimble, as you know, the Tillman family was 
not informed of the actual cause of Corporal Tillman's death 
until 5 weeks after the incident. One critical question here is 
when Central Command, Commander General Abizaid learned that 
Corporal Tillman had died by friendly fire.
    On page 24 of your March 26, 2007 review, reveal matters 
related to Corporal Tillman's death, you report that General 
Abizaid told us that there was a delay of 10 to 20 days in his 
receipt of the message from General McCrystal informing of 
Corporal Tillman's fratricide because General Abizaid was in 
Iraq. Is that correct?
    Mr. Gimble. That is correct.
    Mr. Honda. According to recent Associated Press news 
reports, however, General Abizaid visited Afghanistan within a 
week of the incident in question and may even have spoken to 
Corporal Tillman's platoon commander. If this is accurate, then 
I would find it highly unlikely that General Abizaid could have 
remained unaware of the cause of Corporal Tillman's death.
    According to the same AP report, however, your spokesman 
said that investigators did not look into General Abizaid's 
visit to Afghanistan. Mr. Gimble, were you and/or your 
investigators aware of General Abizaid's Afghanistan trip?
    If so, I am extremely perplexed why you not have looked 
into this.
    Mr. Gimble. We were not aware of the Afghanistan trip on 
April 29th. I would only submit this, though, if he talked to 
the lieutenant, the lieutenant, according to what we have in 
sworn testimony, was unaware that he was a victim of friendly 
fire for about 10 days after the incident which would put it at 
the end of May.
    So I will have to get back to you on the Abizaid trip.
    Mr. Honda. This is a platoon commander that was unaware.
    Mr. Gimble. Well, he was injured. He was shot, shot up 
pretty badly.
    Mr. Honda. But the platoon commander was aware of it.
    Mr. Gimble. According to the documentation we have, he was 
not aware for 10 days that he was a recipient of friendly fire.
    Mr. Honda. The platoon commander?
    Mr. Gimble. The platoon commander.
    Mr. Honda. That means he is the commander of the platoon 
within which the event occurred.
    Mr. Gimble. Right. He got shot, pretty seriously shot too.
    Mr. Honda. Every one of those soldiers who were involved 
knew.
    Mr. Gimble. According to the sworn testimony we have, the 
lieutenant didn't know for 10 days. He was under the impression 
that it was a result of hostile fire.
    Mr. Honda. So there was active insulation of information 
from the platoon commander. Is that what you are telling me?
    Mr. Gimble. I am telling you he was in the hospital is my 
understanding and was very seriously injured.
    Mr. Honda. The platoon commander?
    Mr. Gimble. Right.
    Mr. Honda. Yet, by April 29th, he was able to be visited by 
the general?
    Mr. Gimble. I am not aware of that visit, but I don't 
dispute it.
    Mr. Honda. The issue about Captain Richard Scott, the 
former Commander of Headquarters Company, 2nd Ranger Battalion, 
conducted an initial inquiry into the events in question, a 
report that you had discounted. Is that correct?
    Mr. Gimble. What the initial investigation, the battalion 
commander or the regimental commander, I am sorry, determined 
that it was not sufficient, so they never issued a final report 
on it. They took the draft work in that.
    Mr. Honda. Did you know the contents and the conclusions of 
that draft report?
    Mr. Gimble. They reconstructed it. They didn't get a copy 
of the report because I guess it was destroyed, but they 
reconstructed the findings.
    Mr. Honda. Did you know the conclusion of that draft 
report?
    Mr. Gimble. Yes, it was friendly fire.
    Mr. Honda. Captain Scott's investigation included taking 
sworn statements from witnesses nearly immediately after 
Corporal Tillman's death, in other words, when eyewitnesses' 
memories were the freshest. Regardless of any potential 
lackings, clearly, Captain Scott's report was invaluable.
    On page 17 of your March 26th review of matters related to 
Corporal Tillman's death, you note that Captain Scott said that 
his investigation concluded that there was gross negligence and 
that he recommended that headquarters further investigate to 
determine whether there was criminal intent.
    However, on the same page of your report, you determine 
that Captain Scott's findings disclosed no mention of gross 
negligence and no recommendation for further investigation to 
determine criminal intent.
    How, Mr. Inspector General, were you able to conclude this 
since according to page 14 of your March 26th review, you note 
that: ``After a wide-ranging effort to include data calls, 
computer searches and witness interviews, we were unable to 
locate an intact copy of Cpt.''--name redacted--``draft 
report.''
    How were you able to conclude that?
    Mr. Gimble. I think if you go ahead and read on, it will 
conclude that we were able to gather the data and the 
conclusions pretty much. So we didn't have the exact report, 
but we had based on some documentation that we gathered, and we 
can obviously provide that.
    Chairman Waxman. Thank you, Mr. Honda.
    Mr. Shays.
    Mr. Honda. Just one more quick one?
    Chairman Waxman. We are not going to be able to get 
everybody in before the votes.
    Mr. Honda. OK, I will get back.
    Mr. Shays. I thank the chairman.
    First, I want to thank all of you for being here. I was 
here for the testimony of the first panel, and I had two other 
places I had to be including the committee hearing.
    I want to particularly apologize to you, Specialist O'Neal, 
for not hearing your story. Thank you for your service. Thank 
you for your bravery.
    Senior Chief White, you loved this man, and this probably 
is very painful for you as well.
    It is painful for all of you because you are proud of the 
service and you don't like to screw up.
    But, having said that, what I need to know from a 
Congressional side is it strikes me there are two motivations 
here. One motivation is the worst thing you could probably do, 
I could imagine, is to kill one of your own and to be involved 
in a battle where you are fighting your own side. That would be 
the hardest thing, I think, to deal with. Is that a fair 
statement?
    Mr. O'Neal. Yes, sir.
    Mr. Shays. Thank you.
    I would think then the second issue that arises is that Mr. 
Tillman was such a high profile individual. I mean to be so 
well known, to give up wealth and fame to serve your country 
and then to have this happen would be another factor. Would 
that be accurate?
    Maybe, General, you could respond.
    Mr. Johnson. I think that would be. That would cause some 
concern just because of the notoriety of the individual. But 
any friendly fire incident, we should treat the same.
    Mr. Shays. I was a Peace Corps volunteer when my colleagues 
were in Vietnam, so I know nothing about war. But it strikes me 
that so-called friendly fire, which is killing your own or 
attacking your own, happens in any war. It has happened in the 
past. It will happen in the future.
    General, is that a fair comment?
    Mr. Johnson. Yes, sir, that is correct. It is documented in 
every war.
    Mr. Shays. Now my question, what is the proper punishment 
for someone who knowingly tries to cover up the fact that a 
death occurred because of fratricide? What is it?
    Is it that they should be fired? Is it they should be 
demoted and fired? What is the practice?
    Who can answer that?
    Mr. Johnson. Sir, I don't believe I can go there. I think 
that is out of my lane. I know the four star TRADOC CG is 
apparently doing that investigation to determine what should be 
done.
    Mr. Shays. No. I am not asking who did what. I am just 
asking, in the end, what discourages individuals from covering 
up, distorting information?
    What does it take?
    Maybe, Mr. Gimble, you can tell me what you know to be the 
penalty.
    Mr. Gimble. I am not sure there is a set penalty because 
you have to determine what the circumstances in a case by case 
situation are. That is exactly as General Johnson just said.
    We referred it. We took all the data that we got and 
referred that down to the Commanding General of TRADOC who was 
appointed by the Acting Secretary of the Army to do this 
special inquiry.
    Mr. Shays. My time is running out here.
    Senior Chief White, do you have an opinion about what the 
penalty should be if someone knowingly in the military tries to 
hide the fact that there was a death that occurred or even if 
there wasn't a death?
    I mean if a pilot goes down the wrong runway and nobody is 
killed by it, they are going to lose their job plus. If someone 
tries to cover up that a pilot did that, they are going to lose 
their job.
    It is instructive to me that no one seems to know that. I 
would think there would be a standard penalty. Do you have an 
opinion?
    Mr. White. With my experience with that, sir, it is usually 
a case-by-case basis. There is no standard, across-the-board 
standard.
    Mr. Shays. Let me ask your opinion. Do you think it is a 
serious offense to cover up or provide false information?
    Mr. White. Absolutely.
    Chairman Waxman. Thank you, Mr. Shays.
    Mr. Cummings.
    Mr. Cummings. Mr. Chairman, thank you very much. I will be 
very brief.
    Brigadier General Johnson, is there an offense in the 
military equivalent to obstruction of justice? I am just 
following up on Mr. Shays.
    Mr. Johnson. Yes, there is.
    Mr. Cummings. There is.
    Are there facts here from what you have seen that would at 
least cause one in a position, the equivalent of a State's 
attorney or a U.S. attorney, to look at it to see if there was 
something equivalent?
    Is it called obstruction of justice?
    Mr. Johnson. Yes, sir, it is.
    Mr. Cummings. Do you think there are enough facts here to 
look into that?
    Mr. Johnson. I think that is, no doubt, one of the aspects 
they are looking at, sir.
    Mr. Cummings. Very well.
    I want to go to Senior Chief White. Senior Chief White, 
when did you learn of how Corporal Tillman was actually killed?
    Mr. White. The Friday night that Kevin Tillman found out. 
He called me that evening.
    Mr. Cummings. How did you feel when you heard that?
    You had already spoken at the funeral, is that right?
    Mr. White. Yes, sir.
    Mr. Cummings. I am sorry.
    Mr. White. I was shocked, to say the least.
    Mr. Cummings. Were you let down? Did you feel let down?
    Mr. White. Yes, sir.
    Mr. Cummings. Who did you feel had let you down?
    Mr. White. My military.
    Mr. Cummings. So that was disappointing to you, is that 
right?
    Mr. White. Yes, sir.
    Mr. Cummings. Did it affect your trust in any way with 
regard to the military?
    There are two parts of trust. There is the integrity, and 
there is competence. I am just wondering were you affected in 
any way with regard to your trust in the military?
    Mr. White. Prior to that, there was no way I would ever 
believe that would have happened.
    Mr. Cummings. No way?
    Mr. White. No, sir. That shook me up a little bit. I have 
two boys and a wife. If anything happens to me, I want to make 
sure they know exactly what happened.
    Mr. Cummings. I am sorry. Were you finished?
    Mr. White. Yes, sir.
    Mr. Cummings. Finally, how do you feel today about your 
role in all of this?
    First of all, we want to thank you for your service and you 
too, all of you and Specialist O'Neal.
    We want young people like you. I sit on the Board of the 
Naval Academy, and we have wonderful, wonderful young people 
you who want to be a part of the military. I am just wondering. 
One of the things we are trying to do and Chairman Waxman, I am 
sure is trying to figure out how do we figure out how that 
trust was lost so that we can restore it so that young people 
can feel that sense of its OKness.
    I am just wondering. How do you feel about your role in all 
of this and how do you think we can help restore that trust?
    Mr. White. My role as far as at the memorial, that was a 
horrible thing that happened with Pat. I am the guy that told 
America how he died basically at that memorial, and it was 
incorrect. That does not sit well with me.
    As far as future happenings, it is going to be leadership 
by example from here on out for, I am sure, everyone. That is 
the only way we can make this thing.
    Mr. Cummings. Well, let me say this to you, that being here 
today, you and Specialist O'Neal, you are a shining example of 
what leadership ought to be about, and I thank God for you, and 
I wish you Godspeed.
    Chairman Waxman. Thank you.
    Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman.
    Mr. Gimble, we were talking about the missing documents 
from Captain Scott and your conclusions. Let me ask you. If you 
had not had access to Captain Scott's report in its entirety 
and even if you were able to piece together portions of it, how 
were you able to determine that he did not conclude that there 
was gross negligence and recommend that HQ further investigate 
potential criminal intent?
    Mr. Gimble. In his findings and recommendations, we didn't 
see where he concluded. He didn't comment on that in those. And 
so, that was the point.
    We have his findings and conclusions, and we didn't see 
where he used those words of gross negligence. That is how we 
concluded. That is how we concluded.
    Mr. Honda. To Mr. Johnson, General Johnson, at least seven 
times the Army Criminal Investigations Command report addresses 
the possibility of a Predator Unmanned Aerial Vehicle or UAV 
having overflown the battlefield.
    In one of these instances on page 571, your report notices 
that General Boykin made a formal request for any Predator 
footage and that he, General Boykin, would followup with CIA to 
ensure that a review for the requested imagery be conducted. 
There is no further mention made in the CID report as to 
whether there was, in fact, followup with the CIA.
    General, did you look into whether this occurred? If so, 
what were the results of your inquiry and why were they not 
included in the CID report?
    If you did not look into this, why not?
    Mr. Johnson. Yes, sir, we did look into that. We had one 
soldier in the trail vehicle who was the Close Air Support 
Coordinator, and he is the one who mentioned that he believed 
there was a Predator in the air during the incident because he 
recognized the sound of a Predator.
    Based on that, we followed up on that. Tried to go through 
our local channels. Did not come up with any. Then submitted 
that actual request to the Deputy Undersecretary of Intel, 
General Boykin, in September. Got back from him that he had 
went through the Special Ops channels and had went through the 
CIA channels, and there was no Predator records of that 
particular point on the battlefield.
    So at this place in time, we do not believe there are any.
    Mr. Honda. Would there be records that would validate that 
conclusion?
    Mr. Johnson. We have our reply back from General Boykin, 
yes, sir.
    Mr. Honda. Can you submit that as a matter of record?
    Mr. Johnson. Yes, sir, we can.
    Mr. Honda. In your opinion, would there be other ways of 
verifying that conclusion that there were not any Predators in 
that area?
    Mr. Johnson. Sir, I don't know what other channels we would 
go through. He would have access, and he went to the CIA and 
the Special Ops who control the Predators.
    Mr. Honda. Would they not share their information? Would 
there be a reason why they would not share their information?
    Mr. Johnson. Sir, the answer we got back was there was no 
Predator reports.
    Mr. Honda. OK. Thank you, Mr. Chairman.
    Chairman Waxman. Thank you, Mr. Honda.
    Chairman Waxman. I just want to ask a few wrap-up questions 
if I might.
    Lieutenant Colonel Robinson, you were interviewed about 
this videotape by the Washington Post of Jessica Lynch, and 
your statement according to the Post was: ``We let them know if 
possible we wanted to get it. We would like to have the video. 
We were hoping we would have good visuals. We knew it would be 
the hottest thing of the day. There was not an intent to talk 
it down or embellish it because we didn't need to. It was an 
awesome story.''
    You say you let them know that you wanted to tape the 
rescue. Who is the them you were referring to? The rescue team? 
The operations folks? Who was it?
    Mr. Robinson. Mr. Chairman, first of all, I don't remember 
ever speaking to Dana Priest, although I don't necessarily 
disagree with the content of the article.
    Chairman Waxman. It might have been Susan Schmidt. I am not 
sure which.
    Mr. Robinson. I am sorry?
    Chairman Waxman. It might have been Susan Schmidt from the 
Wshington Post.
    Mr. Robinson. I can remember talking to Bradley Graham from 
the Washington Post about a variety of issues, and Tom Ricks.
    Chairman Waxman. But in this quote, they say that you said 
them. Do you recall the quote?
    Mr. Robinson. No, sir. I don't remember speaking about 
Jessica Lynch, but I can tell you where the visuals would have 
come from.
    Chairman Waxman. Yes.
    Mr. Robinson. The visuals would have come from an officer 
who was assigned to the SOF unit who had an additional duty of 
providing visuals back to the press center. These were not the 
only visuals that we received from this unit, and we got 
visuals all day, every day throughout that particular 
operation. And so, these visuals that we received would have 
been visuals that we would have requested as soon as we found 
out that there was a potential rescue.
    Chairman Waxman. OK.
    Mr. Gimble, I was shocked to hear press reports that 
Lieutenant Colonel Kauzlarich made comments to the media, 
saying the Tillmans cannot come to terms with their loss 
because they are not Christians. Did you examine these comments 
as part of your investigation and are there any military rules 
or procedures that address Army officers who make denigrating 
comments about deceased servicemen and women and their 
families?
    Mr. Gimble. We did not investigate those. I saw the 
comments in the paper, and frankly I was shocked by them too, 
but we didn't investigate. I would defer to my military 
brothers as to if there are procedures or things that you can 
and can't do in that regard.
    Chairman Waxman. Does anybody here know whether there was a 
violation of any military regulation for a general to make 
these disparaging comments about service people, deceased 
service people or their family?
    Mr. Johnson. Sir, I don't know of any regulation 
prohibiting that, but I find it totally unacceptable.
    Chairman Waxman. Is there anything such as a conduct 
unbecoming a member of the U.S. Armed Services?
    Mr. Johnson. There is such a charge as conduct unbecoming 
an officer, yes, sir.
    Chairman Waxman. That sounds like it is a pretty unbecoming 
statement for an officer to have made.
    Our hearing today has been about two cases, the Tillman 
case and the Lynch case, and in both cases it seems like we say 
deceptive, misleading information. It wasn't misleading 
information. We have false information that was put out to the 
American people, stories that were fabricated and made up.
    In the case of Specialist O'Neal, his statement was 
doctored. It was actually rewritten by somebody. These aren't 
things that are done by mistake. There had to be a conscious 
intent to put a story out and keep with that story and 
eliminate evidence to the contrary and distort the record.
    In the case of Jessica Lynch, we have the Washington Post 
story saying that they were told by government officials. So it 
was attributed in the Post to government officials.
    What we have is a very clear, deliberate abuse 
intentionally done. Why is it so hard to find out who did it?
    Why is it so hard to find out who is responsible and to 
hold them accountable?
    Mr. Gimble.
    Mr. Gimble. We believe that we did find out who is 
accountable. It is going to be up to the Army to determine what 
to do with it, and we have referred that, and I think General 
Wallace will be finishing his initiative here in the near term, 
and I think there will be a lot of final answers to some of 
these questions.
    Chairman Waxman. Brigadier General Johnson, do you have any 
comment on that?
    Mr. Johnson. Sir, I think it is essential that we do 
determine the truth and who is responsible. And, as Mr. Gimble 
said, that is exactly what General Wallace has been tasked to 
do and make recommendations to the Sec Army.
    Chairman Waxman. Do you know whether he is going to go all 
the way up the chain of command and find out how far this goes?
    Mr. Johnson. Sir, that is his investigation.
    Chairman Waxman. Well, we will look forward to his report 
that he will be producing as a result of his investigation.
    I thank all of you for your presence here today. It has 
been very helpful to us to understand the situation better.
    Mr. Johnson. Thank you, sir.
    Chairman Waxman. That concludes our business, and the 
committee hearing is adjourned.
    [Whereupon, at 2:45 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
